<html>
<title> - OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION: THE NATIONAL BROADBAND PLAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






   OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION: THE NATIONAL 
                             BROADBAND PLAN

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 25, 2010

                               __________

                           Serial No. 111-109





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-021                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                    COMMITTEE ON ENERGY AND COMMERCE

                      HENRY A. WAXMAN, California
                                 Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont
      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              CLIFF STEARNS, Florida
ANNA G. ESHOO, California            NATHAN DEAL, Georgia
BART STUPAK, Michigan                JOHN SHIMKUS, Illinois
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
MICHAEL F. DOYLE, Pennsylvania       MARY BONO MACK, California
JAY INSLEE, Washington               GREG WALDEN, Oregon
ANTHONY D. WEINER, New York          LEE TERRY, Nebraska
G.K. BUTTERFIELD, North Carolina     MIKE FERGUSON, New Jersey
CHARLIE MELANCON, Louisiana
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)














                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
    Prepared statement...........................................     4
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     7
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    15
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    16
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............    17
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................    18
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................    18
Hon. Mary Bono Mack, a Representative in Congress from the State 
  of California, opening statement...............................    19
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................    20
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    21
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................    22
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................    23
Hon. Mike Rogers, a Representative in Congress from the State of 
  Michigan, opening statement....................................    24
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................    26
Hon. Anthony D. Weiner, a Representative in Congress from the 
  State of New York, opening statement...........................    29
Hon. Zachary T. Space, a Representative in Congress from the 
  State of Ohio, opening statement...............................    29
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................    30
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    10

                               Witnesses

Julius Genachowski, Chairman, Federal Communications Commission..    32
    Prepared statement...........................................    35
    Answers to submitted questions...............................   109
Michael J. Copps, Commissioner, Federal Communications Commission    40
    Prepared statement...........................................    43
    Answers to submitted questions...............................   207
Robert M. McDowell, Commissioner, Federal Communications 
  Commission.....................................................    50
    Prepared statement...........................................    52
    Answers to submitted questions...............................   218
Mignon L. Clyburn, Commissioner, Federal Communications 
  Commission.....................................................    59
    Prepared statement...........................................    61
    Answers to submitted questions...............................   233
Meredith Atwell Baker, Commissioner, Federal Communications 
  Commission.....................................................    65
    Prepared statement...........................................    67
    Answers to submitted questions...............................   247

                   Submitted Materials for the Record

Letter of June 29, 2007, from the Committee to the Federal 
  Communications Commission, submitted by Mr. Stearns............   103
Press release dated August 5, 2005, from the FCC, submitted by 
  Mr. Waxman.....................................................   107

 
   OVERSIGHT OF THE FEDERAL COMMUNICATIONS COMMISSION: THE NATIONAL 
                             BROADBAND PLAN

                              ----------                              


                        THURSDAY, MARCH 25, 2010

              House of Representatives,    
Subcommittee on Communications, Technology,
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Rick 
Boucher [Chairman of the Subcommittee] presiding.
    Members present: Representatives Boucher, Markey, Rush, 
Eshoo, Stupak, DeGette, Doyle, Inslee, Weiner, Butterfield, 
Matsui, Christensen, Castor, Murphy, Space, McNerney, Welch 
Dingell, Waxman, Stearns, Upton, Shimkus, Blunt, Bono Mack, 
Terry, Rogers, Blackburn, Griffith, and Barton.
    Staff present: Roger Sherman, Chief Counsel; Tim Powderly, 
Counsel; Greg Guice, Counsel; Shawn Chang, Counsel; Bruce 
Wolpe, Senior Advisor; Sarah Fisher, Special Assistant; Michiel 
Perry, Intern; Pat Delgado, Chief of Staff; Elizabeth Letter, 
Special Assistant; Neil Fried, Minority Counsel; Will Carty, 
Minority Professional Staff; and Garrett Golding, Minority 
Legislative Analyst.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. Subcommittee will come to order. Good morning 
to everyone. This morning, we welcome Chairman Genachowski and 
the members of the Federal Communications Commission as we hold 
the first in a series of hearings that focus on the National 
Broadband Plan. In the Economic Recovery Act of 2009, we 
directed the Commission to prepare a plan to expand broadband 
access and increase broadband adoption among those who have 
access to it.
    Today the United States stands sixteenth among developed 
nations in broadband usage, and for the benefit of our national 
economy and our quality of life, we simply must do better. The 
Commission has done a superb job in developing the plan, and I 
want to commend the members of the Commission and the 
professional staff who have devoted a year, and I know 
thousands of hours to listening to public comments and 
carefully constructing the blueprint before us. I think you 
have truly done a superb job.
    I am going to comment this morning on several core 
recommendations of the plan and then recognize other members. 
First I was pleased to observe your proposal to transition the 
high cost fund in the Federal Universal Service Fund from 
supporting exclusively basic telephone service, which is what 
it does today, to also supporting broadband deployment. The 
Commission's recommendation very closely tracks the provision 
in the comprehensive universal service reform legislation. That 
for the last four years, I have been working with our committee 
colleague, Mr. Terry, in order to advance. We have been through 
a series of discussion drafts, the most recent of which was the 
subject of a legislative hearing in the subcommittee.
    Today, universal service monies may not be spent for 
broadband. Our legislation will immediately allow carriers to 
use their USF monies for broadband deployment. We also have in 
our bill a mandate that carriers receiving universal service 
monies to provide broadband throughout their service 
territories within five years of the measure becoming law. The 
carriers could no longer receive USF monies if they fail to 
meet this broadband build-out mandate.
    The Commission's recommendation also targets using the 
high-cost fund for broadband, and I commend the compatibility 
of the broadband plan and the legislation that we have placed 
before the committee.
    Secondly, I was pleased to note that the plan incorporates 
the recommendation that we set a high goal for future broadband 
speeds. Today, the typical broadband service to the home here 
in the United States is between three and five megabits per 
second. In countries like South Korea and Japan, today's data 
rates for the typical subscriber are far higher, often reaching 
between 50 and 100 megabits per second. The Commission's plan 
appropriately sets a goal over the coming decade of delivering 
to 100 million homes in the United States broadband speeds of 
at least 100 megabits per second. And I commend you for that.
    Third, the Commission's proposal for auctioning to 
commercial builders the D block of the 700-megahertz spectrum 
without onerous conditions is commendable. The proceeds from 
the auction could then be applied to helping first responders 
purchase and install the equipment that is necessary to bring 
to fire, police, and rescue agencies nationwide a truly 
interoperable telecommunications capability. It is essential 
that when they converge from different localities on the scene 
of a disaster that fire, police, and rescue be able to 
communicate one with the other. We are 10 years beyond 9/11. 
That capability does not exist on a nationwide basis today.
    I offer to you my support for obtaining the appropriations 
that will be necessary in addition to the proceeds from the D 
block auction in order to complete the build-out of first 
responder communications equipment. I think that on a matter so 
fundamental to the Nation's security, we will have bipartisan 
support for the provisions of the money necessary for the 
purchase of public safety equipment.
    Finally I want to commend the approach that you take in 
your plan to work with television broadcasters to identify the 
spectrum they now hold that on a consensual basis could be 
repurposed for commercial, wireless use. Broadcasters who 
surrender spectrum would receive compensation in exchange for a 
voluntary spectrum transfer. That, Mr. Chairman, is the right 
approach.
    We will soon pass here in the House our bipartisan bill to 
direct you and the NTIA to conduct a comprehensive inventory of 
the entire spectrum that could be used for commercial purposes. 
That inventory will offer a clear path for the next steps in 
making available adequate wireless spectrum. And that spectrum 
will be necessary to meet our Nation's rising demand for 
wireless services.
    You have done an outstanding job in preparing the plan, and 
we want to thank you for joining us here this morning in order 
to discuss your recommendations. That concludes my statement, 
and I am now pleased to recognize the ranking Republican member 
of our subcommittee and our partner in so many 
telecommunications initiatives, the gentleman from Florida, Mr. 
Stearns.
    [The prepared statement of Mr. Boucher follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning and thank you, Mr. Chairman, and 
let me welcome all the witnesses and let you know how much we 
appreciate you taking your time to come here. It is a very 
important hearing. We do this regularly, but this is, I think, 
very appropriate considering we just got the broadband plan 
from all of you.
    I have a lot of ideas. I haven't been through the whole 
plan. My staff has been through it. We have marked up and done 
an analysis. I think all of us would agree that broadband is 
critical to our economic growth, and certainly the goals 
outlined in the plan are encouraging.
    You know on page 10, it mentions goal number four, Mr. 
Chairman, which I think is really exciting to think that every 
American community should have affordable access to at least 
one-gigabyte-per-second broadband. Service to anchor 
institutions such as schools, hospitals, and government 
buildings, and you mentioned this, but I think all of us in 
America would not even comprehend what would happen in this 
country to its productivity and to the innovation and 
technology if we had one gigabyte. So, as you mentioned, 
oftentimes we get less than five megabytes through our 
broadband today. So I think this goal is outstanding.
    It is important for the Commission to recognize that much 
about our broadband market is working well, and that perhaps is 
my theme this morning, and that the plan should complement what 
is working rather than scrapping it. Key findings, according to 
the report now, that 290 million Americans, 95 percent of the 
population today have access to at least four-megabytes-per-
second broadband service and two-thirds of adults subscribe. So 
approximately 200 million subscribers have broadband at home 
today, representing a 25-fold increase in the last 10 years, up 
from 8 million.
    By comparison--I just asked the staff to look at this--it 
took 90 years to go from 8 million voice subscribers to 200 
million under the old Title Two Common Carrier regulations. So 
that should tell you something. This plan confirms that the 
free market, pro-investment, national plan we already have in 
place for broadband has worked, considering how quickly we have 
moved.
    All the FCC need do then is remain focused on the five 
percent of households that otherwise may be uneconomic for the 
private sector to serve. What Congress and the FCC must not do 
is revert to failed regulatory ideas that were designed for old 
technologies and a monopoly marketplace, such as imposing 
network neutrality for forcing access to facilities and 
regulating rates are the surest way to deter the investment we 
need to reach this new broadband plan and ultimately the goal 
of one gigabyte here in America.
    If we don't impose regulation of broadband providers that 
discourage private sector investment, we can meet the FCC 
chairman's goal of making 100-megabyte-per-second service 
available to 100 million households by the year 2020. So we 
must carefully avoid any investment killing and government 
interventions and avoid any attempt to reclassify broadband as 
a Title Two service.
    I think the plan, as we went through it obviously has some 
very good points, and I want to thank the chairman for 
answering my letter I sent to him. And it was nice to get the 
letter before the hearing, and we appreciate his response. As 
he pointed out, that the plan costs $20 million to create, and 
I am concerned that we had to spend $20 million to confirm what 
a lot of us knew was working. But I think it is worthwhile to 
get this perspective in this report.
    It could end up saving us more money as we move forward if 
the pro-investment approach continues and we refrain, as I 
mentioned, from putting burdensome regulations in place.
    Now, of course, this does not mean that the government has 
no role, and the plan can help us in this way. Two approaches 
in this plan show particular promise. The chairman mentioned 
this. The plan proposed to cut the waste in the universal 
service program and refocus it on the five percent of the 
country that does not have access to at least four-megabytes-
per-second broadband. If we are going to subsidize broadband, 
concentrating on the seven million homes that are uneconomic 
for the private sector to serve makes sense.
    Second, the plan seeks to make 500 megahertz of spectrum 
available for wireless broadband within 10 years. That is good 
so long as the FCC does not give the spectrum away or rig 
auctions with conditions. Then we will advance, I think, our 
broadband goals while generating needed federal revenue. I hope 
that the broadband spectrum on the part of the broadcasters 
will be looked at carefully. And if they have to relinquish 
anything, it will be on a voluntary basis so we let that work 
itself out.
    So, Mr. Chairman, I thank very much for this hearing, and I 
look forward to the testimony of our Commissioner.
    Mr. Boucher. Thank you very much, Mr. Stearns. The chairman 
of the Energy and Commerce Committee, the gentleman from 
California, Mr. Waxman, is recognized for five minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Chairman Boucher, for scheduling 
this important hearing. The release of the National Broadband 
Plan was eagerly anticipated over the last several months, and 
I am pleased that the committee is examining its 
recommendations today.
    The National Broadband Plan is the most significant 
ambitious infrastructure program for America since the 
interstate highway system. Our competitiveness and prosperity 
depend on meeting its core objectives. America cannot settle 
for the second best in the digital age. Writing this detailed 
blueprint was a massive undertaking, and I commend Chairman 
Genachowski, the broadband team, the FCC staff, and the open 
transparent and data-driven process they used in preparing this 
report.
    Now comes the hard part. The real test of the plan's 
success will be in its implementation. Congress, the FCC and 
the Administration all have a role to play. One important 
aspect of the plan is the recommendation to enhance public 
safety by building a new interoperable broadband network. 
According to the chairs of the 9/11 Commission, ``the FCC's 
plan offers a realistic framework to move forward, and we hope 
that all stakeholders will work with the Commission to refine 
the plan as needed and make it a reality.''
    I have asked my staff to begin drafting legislation to 
implement the public safety recommendations. We will work in 
close consultation with Subcommittee Chairman Boucher, Ranking 
Members Barton and Stearns, and other members of the committee.
    Significant funding will be needed to effectuate the 
concepts outlined in the plan, but I believe we must find a way 
to move forward on a bipartisan basis to meet the needs of the 
public safety community. The plan identifies a looming shortage 
of spectrum as a major problem facing the expansion of wireless 
broadband. Members of the committee will have different ideas 
about how to address this issue. As we will hear today, the 
broadband plan makes a series of recommendations for freeing up 
spectrum. These deserve our serious consideration.
    As the plan recognizes, there is a pending legal challenge 
to the Commission's ability to regulate broadband networks. The 
outcome of that issue could have serious implications for the 
Commission's ability to protect consumers and implement the 
plan. Whatever the court rules, the Commission should take the 
steps it deems necessary to ensure it can implement the plan 
and to assure that broadband consumers are protected.
    There are other key recommendations in this plan. We need 
to take steps to safeguard consumer privacy, ensure transparent 
and accurate billing, provide access for disabled Americans and 
reform the Universal Service Fund. I hope today's hearing will 
be only the first in a series of hearings on the future of 
broadband. We can benefit from additional hearings that will 
focus on individual aspects of the plan, including creating a 
public safety broadband network, reform the universal service, 
improving spectrum policy, providing better access to persons 
with disabilities, eliminating barriers to deployment and 
promoting broadband adoption throughout the country.
    I look forward to working with Chairman Boucher and other 
members of the subcommittee as we move forward. I thank our 
distinguished panel for being here today and appearing before 
the committee. And I look forward to your testimony.
    Mr. Boucher. Thank you, Chairman Waxman. The gentleman from 
Texas, Mr. Barton, ranking member of the Energy and Commerce 
Committee, is recognized for five minutes.
    Mr. Barton. I thank the distinguished subcommittee 
chairman. Would ask unanimous consent to put my entire 
statement in the record.
    Mr. Boucher. Without objection.
    Mr. Barton. Thank you, Chairman. I am just going to 
summarize because we want to hear from you folks on the FCC. 
First of all, if you have to have a federal broadband policy 
plan, you all have done about as good as can be done. But it is 
kind of like the old movie ``The Good, The Bad, and The Ugly.'' 
The good news is you say some things that I think need to be 
said. You try to reform the Universal Service Fund. You try to 
free up some spectrum, as Chairman Waxman just alluded to.
    The bad, the worst idea I have heard in years is 
reclassification. I just--I don't know about anybody else on 
this committee, but I don't want to regulate broadband like we 
regulated telephone services in the 1930s. I just don't want to 
do it, and I don't think the country wants to do it.
    As far as the ugly part of it, just generically, you know, 
Mr. Waxman talked about the interstate highway system as an 
infrastructure program, and he is right about that. If the 
federal government hadn't decided to do the interstate highway 
system, we wouldn't have had that type of a system. But 95 
percent of America has broadband. The federal government hasn't 
had to spend a dime. This isn't a have/have not program. This 
is a find-something-for-the-FCC-to-do-that-makes-sense-in-the-
21st-Century program.
    So some of your components are things that I think we can 
work together on, but overall, you know, as everybody knows, if 
it is not broke, don't fix it. And you all are trying to fix 
something that in most cases isn't broke.
    So with that, Mr. Chairman, I would yield back. Again I 
want to commend the Commission for working really hard, but you 
have produced a work product that we can use as a roadmap. But 
we don't need to reinvent the wheel here.
    [The prepared statement of Mr. Barton follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Boucher. Thank you very much, Mr. Barton. The Chairman 
Emeritus of the Energy and Commerce Committee, the gentleman 
from Michigan, Mr. Dingell, is recognized for five minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, I thank you, and I commend you 
for holding today's hearing. I want to also commend Federal 
Communications Commission Chairman Dan Husky and his team. They 
have completed a roadmap to ensure broadband reaches every 
corner of the United States.
    There are two elements that should be the core of this 
effort. First, it should focus on promoting broadband adoption. 
Second, it should establish and address a support mechanism for 
broadband's expansion into high cost and underserved areas of 
the country. I am pleased that the National Broadband Plan 
includes chapters on these issues.
    Nonetheless, I have great concerns about several of the 
plan's recommendations about spectrum reallocation and 
competition-based issues. At best these matters are insular to 
the Congress's intent to expand National Broadband Access. At 
worst, they would reinstitute the old policy fights, long since 
satisfactorily settled.
    In November of last year, I wrote to the Commission to 
express my misgivings about reallocating spectrum from 
broadcasters to mobile communications providers. Over-the-air 
broadcasters surrendered nearly a third of their spectrum to 
facilitate the recent transition from analog to digital signal 
transmission. Further loss of spectrum can have a very serious 
adverse effect on the public by limiting consumer choice. With 
respect to broadband television, this potential outcome would 
also reflect a marked weakening of the long-cherished 
principles of diversity and localism.
    My father and I have defended these since the Commission's 
establishment in 1934. Before considering whether if or how to 
reallocate frequencies used for television, it behooves the 
Commission to work with NTIA to complete a comprehensive 
spectrum inventory such as the one mandated by H.R. 3125, ``The 
Radio Spectrum Inventory Act.'' I consider this a necessary 
predicate for the Congress's consideration of the national 
broadband proposal to grant the Commission the authority to 
conduct spectrum reallocation incentive options.
    I have also serious apprehensions about the plan's chapter 
on competition issues. This chapter is an unpleasant reminder 
of old arguments from the '90s. At that time, the Commission 
required that local companies should make their networks 
available to all manner of carriers at below-market prices. 
This so-called unbundling resulted in a glorious mess.
    My colleague, Mr. Billy Tauzin, and I moved legislation 
through the House to eliminate unbundling requirements with 
respect to carriers' investment in broadband facilities. The 
Senate, as it is unfortunately oft wont to do, did not pass 
this eminently sensible legislation. But the Commission 
ultimately adopted the bill's essence in its triannual review 
of 2003. The result has been enormous investments by carriers 
in broadband, both in my home state of Michigan and across much 
of the Nation.
    Chapter four of the National Broadband Plan signals 
communication and the Commission's intention to revisit the 
unbundling statute. This, I think, is to reopen an old fight, 
and it gives me great concern because it can very well serve as 
a disincentive to necessary investments in broadband 
facilities.
    In conclusion, Mr. Chairman, I would like to remind the 
witnesses today that the Congress is the sole progenitor of the 
Commission's authorities. To quote Sam Everett, ``If the 
Commission remembers it works for us, everything will turn out 
fine.'' In keeping with the sentiment and concerns I have just 
articulated, I respectfully suggest that the Commission stay 
focused on the Congress's simple goal of ensuring that 
broadband is accessible and affordable to all Americans, rather 
than to seek to rehash old and unproductive policy debates and 
to start counterproductive fights which are quite unnecessary.
    Mr. Chairman, I thank you for your courtesy. I ask 
unanimous consent to submit letters to the Commission to finish 
out the questions that we will need to ask today. I yield back 
the balance of my time.
    Mr. Boucher. Thank you very much, Mr. Dingell. The record 
of this hearing will remain open for members to submit 
additional questions in writing to members of the FCC. The 
gentleman from Illinois, Mr. Shimkus, is recognized for two 
minutes.
    Mr. Shimkus. Mr. Chairman, I think Mr. Upton here is prior 
to my time.
    Mr. Boucher. All right, I am sorry. Mr. Upton, you are 
recognized for two minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman, and welcome, 
Commissioner, it is good to see you. The trend in 
telecommunications sector is towards development of advanced 
technologies and increase competition. Deregulation has 
successfully promoted investment, innovation, and more 
competition, benefitting consumers to no end.
    95 percent of Americans now have broadband in more than one 
choice of carrier. That statistic along with more than $100 
billion recently invested in the infrastructure speaks for 
itself. So, as Mr. Barton said, if it ain't broken, don't fix 
it. So as it works, let us not break it. It is clear to me that 
as the level of competition in the market increases, the amount 
of government regulation should decrease.
    And I would hope that we all could agree that the markets, 
in fact, have done a better job of protecting consumers than 
the regulators do. And in a competitive market, we should 
permit market forces to work and not interpose government regs 
between providers and consumers. All that does is impede the 
competition that we all want to see. I applaud your goal of 
providing 100 million homes with access to 100-megabytes-per-
second broadband by 2020. And I believe that we can do that 
without regulation.
    The level of deployment will only come, however, with the 
continued robust investment by the private sector. And I would 
agree with Chairman Dingell that the FCC, for example, the FCC 
requirement to carriers to unbundle their fiber, that goal will 
not be met by this legislative body. Don't change the rules 
after investments have been made. Don't put up roadblocks to 
new investment.
    Finally, I have some concerns about spectrum repacking 
proposals that could cause harm to consumers and broadcasters 
as a result of the DTV transition. Broadcasters returned over 
100 megahertz of spectrum to the government and at the same 
time increased their services. Yield back my time.
    Mr. Boucher. Thank you, Mr. Upton. The gentleman from 
Massachusetts, Mr. Markey, is recognized for two minutes.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Thank you, Mr. Chairman, very much, and 
congratulations to the Federal Communications Commission, you, 
Mr. Chairman, and all the Commissioners. When I put the 
language in the stimulus package mandating that the Federal 
Communications Commission had to return this as a report back 
to the American people on the future of broadband just 13 
months ago, I can tell you right now that you met the highest 
expectations which I had when I inserted that language into the 
law.
    And the table of contents is just an indication of how 
thoroughly you have examined this subject. Health care, 
education, and energy and the environment, economic 
opportunity, government performance, civic engagement, public 
safety. This is as thorough a compendium of the issues that we 
have to work on in order to make sure that America once again 
regains its position as number one in the world in broadband as 
could ever be asked to be put together. We have dropped from 
second to fifteenth in the world behind Luxembourg, behind 
Canada, behind Finland over the last eight years. What we saw 
was incumbent companies going to court, going to the FCC 
chipping away at the proinvestments, precompetitive rules that 
we had put on the books. And as that happened, we saw slowly 
but surely the United States slip step by step into a position 
where the rest of the world looks at us over their shoulder.
    And this gives us the opportunity with this plan to once 
again regain that leadership. Google, EBay, Amazon, Hulu, we 
branded this made in the USA in the 1990s, but we have been 
slowly but surely slipping behind. So this is an incredible 
plan. And if it is fully implemented, both investment and 
consumer protection will be unleashed in a way which will 
guarantee that the American people will be, in fact, the 
country that the rest of the world looks to with envy.
    And we thank you for that, and we want to work with you to 
ensure that it is fully implemented so that we can regain that 
competitive edge that gave us that incredible position that we 
enjoyed and now has slipped from our grasp.
    We thank you, Mr. Chairman, for holding this hearing, and 
we thank the Commissioner for being here.
    Mr. Boucher. Thank you very much, Mr. Markey. The gentleman 
from Illinois, Mr. Shimkus, is recognized for two minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman. I am glad I waited 
and followed my friend from Massachusetts because as far as I 
know, this is a product of the chairman. It is not a product of 
the Commission. There was no vote on this plan, and I think we 
are going to hear that through the questions today, not that 
the chairman didn't put a lot of time and effort into this and 
his staff.
    I want to debunk this sixteenth or twenty-fifth place. You 
have to be joking me. Lichtenstein, Monaco, Cutter, Malta, 
Bahrain, Luxembourg, Hong Kong, South Korea, Iceland, 
Singapore, St. Kitz, Nimitz, Macau, everyone in the top 20, we 
could fit the 25 in the continental United States. So we got to 
get off this aspect of comparing apples to oranges. It is like 
saying the city of New York has it, and so we are fine.
    We have 95 percent of our people have broadband. Five 
percent do not. Do you know where they are at? They are in my 
district. You know what? The stimulus has not gone to them, and 
the RUS fund is not going to them. And that is what torques 
people off. 95 percent of us have it. It is the private sector 
that has rolled it out, and now we want to take over one-sixth 
of the economy, another one-sixth of the economy to moving this 
whole information age from Title One to Title Two. The dirty 
little secret back here, it has already been exposed. We are 
not going to get a surprise from the chairman this time in the 
hearing because it is here. Some commented or suggested a 
second approach in which the FCC would implement certain plan 
recommendations under its Title Two authority.
    So let us have this hearing. Let us have this debate. The 
system is working. Where it is not working is in rural America 
which we spend billions of dollars, and the money is not going 
there. And we have the rollout. We got the stimulus rollout. We 
are overbuilding places that have broadband right now with our 
tax dollars. And it is not going to where it is needed. I yield 
back.
    Mr. Boucher. Thank you very much, Mr. Shimkus. The 
gentlelady from California, Ms. Eshoo, is recognized for 2 
minutes.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, for moving so quickly 
to schedule this hearing and welcome to the entire Federal 
Communications Commission. I have read the plan. I want to 
congratulate you. I think it is a bold one, and I think it is 
what our country needs.
    On this issue of where the United States is ranked in the 
world, according to the International Telecommunications Union, 
they have measured the United States, and they say that we have 
slipped from eleventh to seventeenth between 2002 and 2007. We 
know that our standing in the world is not a source of pride to 
us. Fewer than 27 out of every 100 Americans have broadband 
service compared with much better numbers in other countries.
    But today, we are going to hear the plan. We are going to 
ask questions about it. I am very pleased that many of the 
priorities that I have kind of pounded away on over the years 
are contained in the plan that really reflects my own 
legislative agenda. I hope we will move expeditiously on the 
broadband conduit bill, which I call the digging bill, which 
will ensure that federally funded transportation projects are 
required, laying the broadband infrastructure so we don't have 
to dig up what we've already built in order to lay down what we 
know we need.
    I also look forward to the subcommittee's fast-tracking 
consideration of the next generation 911 bill that my 
colleague, Jim Shimkus, and I know in his fight about where we 
are, where we are not, he would have mentioned this. We 
introduced the bill two weeks ago. I am ready to vote on a 
thorough and complete reconstruction of the Universal Service 
Fund and its programs so that we essentially can leapfrog into 
the 21st Century. America has always led the world in countless 
ways, and that is what I find so exciting about the plan 
because it is a roadmap, a plan, on how we can get there.
    We also need to decide the future of telecommunications 
services and their individual classification so that we can 
ensure that consumers are really properly protected and that 
competitiveness is encouraged. No matter who I meet with, they 
are also for competition unless it cuts in some way to the 
competition that they have a total hold on. We need an 
aggressive agenda, as I said, because the United States really 
lacks badly.
    So I look forward to hearing from each one of the 
Commissioners. This is going to be a lively debate, but at the 
end of it, I think what we all--our common goal must be is that 
there is competition that every person in the country is 
reached by 2020 with high speeds, not with this lagging speed 
that somehow people have a source of pride about. I don't. I 
don't think it is good enough for our country, and I look 
forward to working with everyone to accomplish this for our 
country.
    So thank you for a job well done. It is broad. It is 
visionary, and it is bold. I think it is exactly what we need 
to be talking about. Thank you.
    Mr. Boucher. Thank you very much, Ms. Eshoo. The gentlelady 
from California, Ms. Bono Mack, is recognized for two minutes.

 OPENING STATEMENT OF HON. MARY BONO MACK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Bono Mack. Good morning, Chairman Boucher, Ranking 
Member Stearns and Commissioners. I too would like to thank the 
FCC for its hard work on the National Broadband Plan. It is 
clear that a great deal of effort and thought went into this 
endeavor.
    As I review the text, I see some real opportunities for the 
committee and the Commission to work together to increase 
investment and opportunity. In the general sense, I believe 
that the plan's approach to spectrum use and universal service 
are quite promising. Further, I believe most of us would agree 
that the goals of the plan are admirable. After all, who among 
us doesn't want to facilitate capital investment and increase 
their constituents' access to broadband?
    However, like the broadband plan, members of Congress also 
have goals. As we all stare at high unemployment rates in our 
districts, my goal is to support policies that create jobs for 
my constituents. Therefore, I have to question portions of the 
plan that seem to imply the need for a heavier government hand. 
I personally remain unconvinced that a sector of our economy, 
which is continuing to attract capital investment and reach 
more American households is in need of more government 
interference.
    As a matter of principle, I believe that broadband and the 
hi-techs are best served if the Commission and this committee 
enact policies which incentivize capital investment and promote 
greater economic freedom. Additionally, I strongly believe we 
need to take great steps to protect the digital content that is 
driving consumers to broadband. The creators and owners of 
content should have their property protected by law, and we 
should reward entities who work to ensure its protection, not 
punish them. When I read sections of the plan which call for 
relaxing such protections, I become very concerned.
    Finally, I would like to caution the FCC on pursuing any 
agenda without solid legal authority. One certain way to stifle 
investment and stall economic growth is to make decisions that 
create uncertainty in a marketplace and encourage litigation.
    Again I would like to thank the Commission. I look forward 
to the question-and-answer portion of today's discussion. I 
yield back the balance of my time.
    Mr. Boucher. Thank you very much, Ms. Bono Mack. The 
gentleman from Michigan, Mr. Stupak, is recognized for 2 
minutes.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman, and thanks for 
convening the hearing and welcome to the Commission. The 
National Broadband Plan hits a number of important issues such 
as public safety, interoperability, transitioning the universal 
service phone towards broadband, and freeing up additional 
spectrum for commercial use.
    I want to focus on the plan's recommendations for the 
construction of a national interoperable public safety 
broadband network. The plan's recommendation identifies an 
issue I have been highlighting for years: the need for a 
funding mechanism for the construction of an interoperable 
public safety network. The plan calls on Congress to establish 
the grant program within a year to assist on the construction 
of the network and create a funding mechanism.
    If the FCC is intent on moving forward with auctioning the 
D block spectrum for commercial use, we should use 100 percent 
of those funds as a down payment on building this network. The 
FCC has recognized the need for public funding, provided an 
analysis of the capital expenditure costs of the network and 
projected ongoing maintenance costs. Now Congress must act. 
Congress must act to establish a long-term funding mechanism 
that pays for the maintenance costs of the network and ensure 
that covers all Americans.
    Now, Mr. Chairman, again thanks for holding this hearing. I 
look forward to discussing with the Commission how we can move 
forward on the public safety provisions as well as other 
provisions in the national broadband, and if we have time, a 
question or two--hopefully we will be allowed to ask a few 
questions on the FCC collaboration act that we have introduced 
to bring a little sunshine so we can do our job quickly, more 
efficiently, more effectively and protect the public interest. 
Thank you.
    Mr. Boucher. Thank you, Mr. Stupak. The gentlelady from 
Tennessee, Ms. Blackburn, is recognized for two minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. I appreciate the 
hearing, and I want to welcome the Commission. We are so 
pleased that you are here. Needless to say, we have all been 
following what you have done with the broadband plan, and we 
are anxious to have a discussion with you.
    A couple of quick points. Among my biggest concerns with 
the broadband plan is how these recommendations will affect 
private investment innovation and jobs creation. And because of 
this, I really am anxious to drill down a little bit deeper 
with all of you. You all know my district in Tennessee and know 
our creative community there and their continued expression of 
concerns with the availability of broadband.
    And in this vein, Chairman Genachowski, I agree with 
Chairman Barton on this. I was hoping for stronger and more 
definitive language closing the door on reclassifying broadband 
under Title Two, and instead I have really found the language 
to be ambiguous. And I am hopeful that we are going to see some 
changes there or could see some changes there again. Again 
investment is a concern that I have. And as we all know, a 
reclassification to Title Two is nothing more than a stepping 
stone for implementing net neutrality, which I believe would be 
detrimental to a thriving telecommunications industry.
    And before I yield back, I also want to flag for each of 
you a concern over what I think is a kind of a pretty toothless 
effort in the plan to curb copyright infringement. And I 
applaud your acknowledging the illegal distribution of 
copyrighted content being a problem. But I am anxious to get 
your thoughts on how we can put a little bit more heft behind 
that and continue to protect the innovations of those that are 
bringing next-generation technologies and uses about and also 
by creative community. And I yield back.
    Mr. Boucher. Thank you very much, Ms. Blackburn. The 
gentleman from Pennsylvania, Mr. Doyle, is recognized for two 
minutes.
    Mr. Doyle. Thank you, Mr. Chairman. I will be brief. I was 
always taught that if you fail to plan, then you plan to fail. 
And looking over the broadband plan, I have to say 
congratulations. You all have passed. There is a lot of policy 
goals outlined in the plan. It sets the FCC on a bold plan of 
action, and it gives us, in Congress, a few things to do also.
    I am not going to run down a laundry list, but I think that 
the plan to promote competition is much needed and well 
received. Competitors need access to wires and spectrum in 
order to deliver more affordable and more innovative services.
    Additionally the plan for Universal Service Fund reform is 
well thought out. I hope that the Commission also takes this up 
as soon as possible, even without a new bill out of Congress. 
Chairman Genachowski, you have a lot to be proud of in this 
plan, and I want to congratulate you and your team for their 
hard work. And I yield back.
    Mr. Boucher. Thank you very much, Mr. Doyle. The gentleman 
from Alabama, Mr. Griffith, is recognized for two minutes.
    Mr. Griffith. Thank you, Mr. Chairman, and I will ask 
unanimous consent to submit my opening statement for the 
record.
    Mr. Boucher. Without objection.
    Mr. Griffith. Just a few comments. I never thought I would 
ever see the FCC Commission. 15 year ago, I founded FM 
frequency and put it up for public notice, and seven years 
later, we got it on the air. So you can see that I am not pro-
regulation. But I do believe that the report is done with a 
good heart and with the American people in mind.
    I recognize that the competition that exists in the 
marketplace today has accomplished a great deal, and I hope 
that as we go through these hearing--and I am sure the debate 
will be spirited--I hope we have in mind that there is not a 
whole lot we can do to improve what has been done or in the 
spirit of what has been accomplished by private industry and 
investment. It has been significant.
    So I appreciate you being here and look forward to the 
discussion. Thank you, Mr. Chairman. I yield back.
    Mr. Boucher. Thank you, Mr. Griffith. The gentlelady from 
California, Ms. Matsui, is recognized for two minutes.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you very much, Mr. Chairman, and thank 
you for calling today's hearing. I also would like to thank 
Chairman Genachowski and the other Commissioners for being with 
us today and for their work on the National Broadband Plan. I 
would also like to commend the FCC broadband team for their 
hard work and thoughtfulness in crafting a bold and visionary 
plan.
    Though no plan of this magnitude is perfect, this plan 
demonstrates American leadership and will serve as a blueprint 
for the world to follow. I am particularly pleased that the 
plan aims to close this Nation's digital divide by recognizing 
the fact that millions of Americans, particularly in such 
economic times, simply cannot afford the high cost of 
broadband.
    Last September, I introduce the Broadband Affordability Act 
that would expand the USF Lifeline Assistance Program for 
universal broadband adoption to help ensure all Americans 
living in urban, suburban, and rural areas have access to 
affordable broadband services. I applaud the FCC for including 
my proposal as essential recommendations to increase broadband 
adoption rates among lower income household in the National 
Broadband Plan. In doing so, we will take a major step toward 
closing the digital divide, and I look forward to working with 
my colleagues and the FCC to make this a reality.
    The plan also recognizes the importance of allocating more 
spectrum into the marketplace and ways to improve our Nation's 
education, infrastructure, health care, public safety systems, 
as well as our anchor institutions in promoting competition in 
our economy. The plan recognizes the critical role that 
broadband plays in moving our Nation toward a more sustainable 
path of greater energy independence and efficiency by including 
a series of recommendations to modernize our Nation's smart 
grid.
    I plan to introduce legislation in the coming weeks that 
would complement many of the FCC recommendations on smart grid, 
so this Nation can promote a smarter electric grid that 
empowers consumers to make choices that can save us energy and 
can save them money. I am looking forward to working with my 
colleagues and the Commission on overseeing and implementing 
many of the important initiatives recommended in the National 
Broadband Plan.
    I thank you, Mr. Chairman, for holding this important 
hearing, and I yield back the balance of my time.
    Mr. Boucher. Thank you, Ms. Matsui. The gentleman from 
Nebraska, Mr. Terry, is recognized.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. Mr. Chairman, thank you for being here 
and Commissioners, appreciate your input on the broadband plan. 
I hope that it lays a good overview. Generally I think it 
brought it from just a nebulous maybe 50,000 down to the 
10,000-foot level, not really getting into the super-granular 
activities or details, which I felt was good in the sense that 
it may signal that we actually have a role in Congress.
    And that is the theme I want to state here today is while I 
think you have done a good job of incorporating especially USF, 
I think Congress needs to take your plan, use that as the 
recommendations, but we need to do our job in Congress. Frankly 
I am uncomfortable with just saying you take the lead on all of 
this stuff. We are not going to deal with it. I think the 
opposite. The role is for us to do it, and I am going to take 
your plan as recommendations.
    On the Republican side, we have heard a lot about private 
sector involvement here, and I want to make sure that when I 
read the plan, I read that, yes, there were some regulatory 
type of policies outlined that we will have hopefully great 
debate within this committee on. But let us not short the 
private sector here. $60 billion per year by the private 
sector, and ruling out high speed broadband in this Nation 
should not be glossed over.
    We did $8 to $9 billion in the stimulus package over two 
years, so government spending and subsidy of broadband rollout 
is a small percentage. And if we start thinking that government 
is going to be the answer in rolling this out, we aren't going 
to get this plan adopted. So with that, I will yield back.
    Mr. Boucher. Thank you very much, Mr. Terry. The gentleman 
from California, Mr. McNerney, is recognized for two minutes.
    Mr. McNerney. Well, I want to thank you, Mr. Chairman, for 
leading this important and timely hearing, and I want to 
commend the Commission for your hard work on this. This is a 
pretty comprehensive plan. You worked hard. The plan clearly 
includes many important issues, but I am only going to be able 
to focus on a couple of them.
    A large part of my district has been severely hit by the 
economic downturn, and promoting job creation is my highest 
priority. It is significant that many of the companies in the 
telecommunication industry are still expanding even in the 
economic downturn, so there is something here that we want to 
capitalize on.
    I am very excited by the job growth creation potential that 
implementing this plan can produce, and vigorous investments by 
private sector coupled by sensible policy will clearly benefit 
our entire Nation.
    And finally I would like to ask the Commissioners to 
discuss briefly issues pertaining to spectrum allocation and 
special access. And with that, I yield back the balance of my 
time.
    Mr. Boucher. Thank you very much, Mr. McNerney. The 
gentleman from Michigan, Mr. Rogers, is recognized for two 
minutes.

  OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Rogers. Thank you, Mr. Chairman. I hope we get to some 
resolve here of where we are going, and I think Title Two 
reclassification is dangerous at best. Just the fact that this 
plan exists has put a shiver of cold in the investment 
community about where we go in broadband development.
    We often want to talk about what has made America great. It 
wasn't the United States Congress. It wasn't the executive 
branch. It was private entrepreneurs putting capital at risk 
and making things happen, and the reason we have--and my 
friends on the other side of the aisle say 27 percent or 
whatever figure they use. It is because the private market is 
going to pursue a plan that allows a return on the investment 
so they can go to the next phase of that investment.
    And any time that we seek to stand in the way of that, we 
are going to get a horrible outcome. And just the notion that 
we are even talking about going to net neutrality, more 
regulation. I mean if you look at why it took so long for 
wireless to get to where it is and phones to get where it is, 
it is because they base the original rules, regulations, and 
laws on the Common Carrier Act for railroads in 1897. And we 
applied it to phones. This is exactly that same kind of iron 
horse regulatory ideas on an industry that is changing so fast 
we can't keep up with it. Satellites are going to get ready to 
go to 4G pretty soon. What we ought to do is get out of their 
way and let competitive reign the day.
    The reason those other countries did it the way they did is 
because they don't have economies like the United States. They 
don't have the kind of investment and investors that the United 
States does. There is a marketplace here that is attracting 
money. My fear is if we continue down this path, we will stop 
that investment, and I think we will do far more harm than 
good.
    Doesn't mean there is not a role for government. I think we 
can work on those things, but the very principle and idea that 
you have thrown this into--this uncertainty in the marketplace 
I think is a little bit dangerous to what I think is 
competitive development of broadband, and I would yield back my 
time.
    Mr. Boucher. Thank you very much, Mr. Rogers. The gentleman 
from Connecticut, Mr. Murphy, is recognized for two minutes.
    Mr. Murphy. Thank you, Mr. Chairman. I will associate 
myself with a portion of Mr. Rogers' remarks except to say that 
I think what has made this country great are free markets, but 
structured free markets. And I appreciate the hard work the 
Commission has put into this plan. It can certainly be 
improved, but it provides, I think, the type of structure that 
we need to make sure that the type of robust capital investment 
that we know is going to build out our broadband system is done 
in the fairest means possible.
    I would just like to associate myself with remarks made 
with respect to the issue of online piracy, and I understand 
that in the open Internet notice of proposed rulemaking, the 
Chairman has stated very clearly that the Internet and this new 
broadband platform should not be a shield for violations of the 
law and copyright infringement. But I think you are hearing 
from both sides of the aisle that there is a little bit of 
dissatisfaction on the amount of focus in this report on that 
issue.
    This country is losing billions of dollars every year to 
Internet piracy, and the trend is going in only one direction. 
As much as we can ask content providers to do, ultimately, I 
think, the solution largely lies in the hands of those 
distribution networks that are going to take advantage of what 
is now a partially federally funded broadband network.
    And so I think you are hearing from a number of people that 
would love to hear some comments from the Commission on how we 
think we either revise the plan or add to the plan with respect 
to piracy in order to guard copyright moving forward. But all 
in all, I would agree with many of my colleagues to say that 
this is a product of, I think, great labor and, I think, great 
importance for the rollout of broadband in this country, and I 
yield back.
    Mr. Boucher. Thank you very much, Mr. Murphy. The gentleman 
from Missouri, Mr. Blunt, is recognized for two minutes.
    Mr. Blunt. Thank you, Mr. Chairman. I have remarks for the 
record. In addition to that, I would just like to say that the 
comments that I made and others made in our hearing on this 
last year about unserved versus underserved areas continue to 
trouble me. As we go into the finding of what unserved areas 
are, it does seem to me that in rural areas particularly, you 
run the great risk of making that service untenable because you 
create a competitor in a marketplace that can barely handle one 
provider. I am concerned by that.
    I am concerned by what net neutrality is in this plan that 
might lead to needless regulation, unbundling mandates. All of 
those things discourage the build-outs in the areas that we 
need them. I do think that the Universal Service Reform and the 
spectrum planks, the new plan probably keep us away from that 
regulation if we focus on them instead of the other things.
    But, Mr. Chairman and Mr. Stearns, thank you for holding 
this hearing. I hope that we do become vigorous and active 
partners with the Commission as you now look at the work 
product you put before us, and that we don't make the kind of 
mistakes that slow down the great expansion that we have had in 
broadband over the last few years. And I yield back, Mr. 
Chairman.
    Mr. Boucher. Thank you very much, Mr. Blunt. The gentleman 
from North Carolina, Mr. Butterfield, is recognized for two 
minutes.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you, Mr. Chairman. I too want to 
thank you for convening this hearing and thank the five 
Commissioners for coming forward today to have this 
conversation with all of us. I too have a copy of the plan. I 
must concede that I have not read every word of it, but I 
certainly plan to. It is a very comprehensive plan, and I want 
to thank you for your work.
    From what I can understand, the plan states that 95 percent 
of households in America do indeed have access to broadband 
while 5 percent, 1 out of 20, do not. Well, my district in 
eastern North Carolina, the rural district that I represent is 
home to many of those households who are without very basic 
access to broadband. With commerce, education, and 
communication being just a few of the everyday tasks that are 
moving online, those who cannot access broadband become further 
disenfranchised and unprepared for achieving a successful and 
productive life.
    It is particularly important that efforts be focused on 
connecting the unconnected first so that students, teacher, job 
seekers, and others like those in my district have the 
opportunity to play on equal footing. The less densely 
populated economically depressed areas like much of my district 
are no less in need of access to quality broadband and are 
certainly no less deserving. I hope we can build on the plan's 
goals and recommendations.
    The National Broadband Plan enumerates six long-term goals 
with hopes of achieving them by 2020. The goals are indeed very 
ambitious but certainly achievable so long as government moves 
quickly and responsibly to update its communications policy 
framework while partnering and empowering private industry to 
robustly invest in network expansion and improvements.
    I would like to note the extraordinary private investments 
made to building the networks we use every day. As Congress and 
the FCC move forward, it is important we take that investment 
into account when drafting policy around the goals of the plan.
    For example, between '06 and '08, AT&T, a very responsible 
corporation, invested more than $1.2 billion in my state of 
North Carolina in an effort to enhance and improve our 
networks. Increased regulations and mandates on the companies 
that built these networks with their private dollars may not be 
the best way to achieve the goals of the plan.
    So it is critical, in closing, that policymakers and 
regulators work in concert--that is the key word--work in 
concert with private industry when drafting those policies. 
Thank you for your indulgence, Mr. Chairman. I yield back.
    Mr. Boucher. Thank you very much, Mr. Butterfield. The 
gentlelady from Colorado, Ms. DeGette, is recognized for two 
minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman. I will put 
my full statement in the record. I just want to mention a 
couple of things. I agree with my colleagues that this National 
Broadband Plan is a comprehensive, and it is a forward-looking 
document, and I strongly share the goals. I want to raise just 
a couple of issues.
    The first one is cities like Denver, which is my district, 
are often the first to get access to the first communications 
technologies. But access alone is not enough. What we have to 
remember as we go forward is that broadband also has to be 
affordable for low-income Americans, many of whom live in urban 
areas like my area and who have seen a real divide, even though 
broadband is accessible in urban areas.
    Second issue I want to mention is the conflicts with 
existing uses that we are going to have to resolve. The 
broadband plan recommends allocating new spectrum to satisfy 
consumer demand for wireless data networks. And this could 
provide important benefits, but it also raises questions about 
how, if a significant transfer of spectrum to broadband is 
needed, we can accomplish the objective in the fairest way to 
existing spectrum uses. And so this is one of the questions 
that I hope that we can explore today.
    I want to just mention two other aspects of this plan that 
I am very pleased to see. The first one is the emphasis on 
health IT which is going to be very important as we move 
forward with our new health care plan in this country, and 
which we have seen in my district with Denver Health how much 
health IT can help with patient outcomes and efficiency.
    Secondly, I am very pleased to see some mention of 
expanding in national smart energy grid. I think a smart grid 
is going to be very important as we get independent from 
foreign oil and develop alternative energy.
    With that, Mr. Chairman, I will yield back.
    Mr. Boucher. Thank you very much, Ms. DeGette. The 
gentlelady from Florida, Ms. Castor, is recognized for two 
minutes.
    Ms. Castor. Thank you, Chairman Boucher, for calling this 
hearing, and thank you, Chairman Genachowski and the entire FCC 
for your work on the National Broadband Plan. You have given us 
a lot to consider, and there are many competing interests here, 
but I think our overarching goal must be to ensure that all 
Americans have access to broadband and the many benefits that 
the technology has to offer. And whether we live in big cities 
and urban areas or small rural towns, whether we are rich or 
poor, black or white, broadband hold so much promise.
    And it appears that the National Broadband Plan is a 
commitment to finally getting everyone on board and ensuring 
that we are a Nation that is united by the most important 
technology since the invention of the telephone. So we must 
continue to modernize and innovate.
    I would like to direct your attention to a couple of the 
proposals that are particularly important to the hard-working 
families in my state. First, the Universal Service Fund. 
Florida historically has paid a lot into it and hasn't gotten 
much back. So I would like to hear how the broadband plan will 
correct this past discrepancy. Do you have a commitment to the 
use of spectrum for low-cost wireless service in communities 
where affordability remains a high barrier to broadband use? I 
know there are a lot of students and teachers and older folks 
who will need our help accessing this vital technology.
    The E-rate program should be robustly funded in order to 
ensure that schools and libraries have access to affordable 
broadband including wireless connectivity. Reform of the 
universal service fee must address these issues going forward.
    Second, a public safety network is indispensible to the 
functioning of our communities in an emergency, and Florida 
hurricane season is just around the corner. That means our 
first responders will be on high alert should a big storm knock 
out power and wreak havoc on our coastal communities. There is 
a lot of debate as to whether a dedicated block of spectrum 
would serve our first responders better than a shared network, 
and I would like to hear more on this proposal.
    Overall, I am supportive of the recommendations in the 
plan. I think it strikes a good balance between the incentives 
for innovation and incorporates practical mechanism to bring 
the digital divide. Congratulations.
    Mr. Boucher. Thank you very much, Ms. Castor. The 
gentlelady from the Virgin Islands, Ms. Christensen, is 
recognized for two minutes.
    Mrs. Christensen. Thank you, Chairman Boucher, and thank 
you for holding this hearing so that we can go home better 
informed about the National Broadband Plan that was unveiled by 
the FCC this week. Although the number of people connected to 
broadband in this country has gone from 8 million in 2000 to 
almost 200 million last year, far too many families are still 
not connected, and our world rankings are far too low.
    So while this plan is a solid blueprint, I do look forward 
to implementations closing the gap and propelling us into the 
world leadership that we used to have before. It cannot be that 
because they are not connected, children can't do their 
homework, individuals can't access jobs, small businesses 
cannot buy or sell competitively, health care cannot reach 
everyone who needs it, and our public safety agencies cannot 
communicate well enough to protect us in an emergency. So this 
plan needs to ensure all of this while preserving and 
stimulating competitiveness in keeping costs affordable is 
quite a challenge you and all of us have ahead of us.
    We will monitor with great interest the reforming of the 
Universal Service Fund and the E-rate which we have had 
problems with in the Virgin Islands as well as a freeing up and 
an auctioning of the spectrum.
    I have several concerns. One being, of course, that the 
territories be fully included. The rest of them I hope to get 
to in questions. And again I want to commend you, Chairman 
Genachowski, and the other Commissioners for the transparent, 
open, and comprehensive process, and welcome all of you back to 
the subcommittee.
    Mr. Boucher. Thank you, Ms. Christensen. The gentleman from 
New York, Mr. Weiner, is recognized for two minutes.

 OPENING STATEMENT OF HON. ANTHONY D. WEINER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Weiner. Thank you very much, Mr. Chairman. I want to 
welcome members of the Commission here and express the 
gratitude of our committee for the work that went into this 
report. I want to associate myself with the remarks of Mr. 
Markey, and I do want to just make a brief mention of my good 
friend Mr. Shimkus and his remarks. He is able to work up a 
level of indignancy by 10:00 most of us can't muster in a whole 
day, but it is important to note that having a conversation 
about broadband in our economy without looking at what we are 
doing and not doing and how we are slipping in relation to 
other states and other nations is just folly.
    You know we have learned with our history with the Internet 
and technology, it is a great job producer for us. It is a way 
we keep our competitive advantage. It would be akin to opening 
up a shoe store in a neighborhood and saying I'm not going to 
look at any other shoe stores in the neighborhood or in the 
neighborhood counties to find out what they are doing right or 
wrong. We have to think that way, and too often we--and it is a 
constitutional problem probably--we think for a year to the 
next budget, to the next fiscal year, to the next appropriation 
bill. This document that was produced by the FCC takes that and 
turns it on its head and said we have to look for the next 
generation, for the next 30 years, for the next 50 years. 
Admittedly, there are going to be some elements of this plan 
that are going to maybe create problems for one sector. Maybe 
they are going to encourage other sectors, but that is exactly 
the type of thinking that we should want to do.
    We have to remember as we look at this committee that we 
are looking for opportunities in this document to produce 
thousands and thousands and thousands of jobs. But we are not 
going to know exactly what they are going to look like. That is 
the way technology always operates. We are at our best in this 
body and in this subcommittee when we are laying the groundwork 
for innovation.
    The FCC has done it, and I want to thank you very much for 
setting us on this path. We are going to change a lot of words 
in this document. We are going to make some amendments to it, 
and we are going to find our own way as a legislature often 
does, but as a blueprint, you have really scored. And I want to 
express the gratitude of our country for your doing so.
    Mr. Boucher. Thank you very much, Mr. Weiner. The gentleman 
from Ohio, Mr. Space, is recognized for two minutes.

OPENING STATEMENT OF HON. ZACHARY T. SPACE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Space. Thanks, Mr. Chairman, for holding this hearing. 
I would like to thank Chairman Genachowski and the Commissions 
along with your staff for a lot of hard work. I know a lot of 
people have worked very hard around here lately, but I don't 
know that anyone has matched that you and your teams have put 
in. So thank you.
    There are a lot of exciting and, I think, forward thinking 
aspects to the National Broadband Plan that you have prepared. 
And I would like to highlight two areas of interest that I 
believe will benefit the constituents that I represent back in 
Ohio.
    First I am delighted to see that the plan proposed to 
transform the existing high costs of the Universal Service Fund 
Into the Connect America fund that will support broadband 
networks. As stated in the testimony before us this morning, 95 
percent of Americans have access to broadband. While that is 
obviously very impressive, we still have a lot of work to do to 
cover that five percent, many of whom within rural districts 
and have no options when it comes to broadband.
    Many of those people are my constituents in southern Ohio, 
and transitioning the high-cost fund to explicitly support 
broadband deployment to rural areas would be a tremendous help 
to the residents of Appalachian Ohio.
    Second, I am encouraged to see the plan's recommendations 
on expanding the FCC's Rural Health Care Pilot Program. In 
2007, the southern Ohio healthcare network was successful in 
obtaining a pilot program grant to build a fiber optic network 
across about 12 counties to connect health care facilities. 
This has paved the way for further broadband expansion in the 
region, and at present we are attempting to leverage this 
previous investment to deploy broadband, actually middle mile 
fiber, to 34 counties in southern Ohio that again in many 
places have no options.
    Success breeds success, and we must strengthen the Rural 
Health Care Pilot Program by making it permanent as the plan 
suggests and by permitting for-profit entities serving 
vulnerable populations to be eligible. I stand ready to assist 
on this front. And in closing, I reiterate my support for the 
goals addressed in the plan, and I very much look forward to 
working with the Commission and my colleagues here in Congress 
and industry partners to realize our Nation's broadband 
potential. Thank you and I yield back.
    Mr. Boucher. Thank you, Mr. Space. The gentleman from 
Illinois, Mr. Rush, is recognized for two minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Thank you, Mr. Chairman, and, Mr. Chairman, I 
thank you for conducting this hearing, and also the Chairman of 
the FCC, Chairman Genachowski, and the other Commissioners. And 
I want to join my colleagues in congratulating you on a job 
well done.
    As members of Congress, we have seen far more than our fair 
share of plans before, and they have promised us the sun, the 
moon, the stars, the celestial bodies seen and unseen, known 
and unknown. But very few have been heralded so highly as this 
plan and its promises to enhance America's ability to improve 
the life choices of the people and to maintain her status as a 
global leader.
    While that may sound a bit skeptical about this plan, I am 
really not. Much of it sounds good on paper and certainly makes 
for good and polished sound bites. I understand the power of 
new communication, technologies, and the importance of 
innovation at least in people and communities' commercial 
efficiency and productivity. Same as in our precious energy 
resources as well as ability to safeguard public safety.
    The promise of widespread public access is important for 
our Nation. The unique opportunity we are presented with at 
this moment in history is unprecedented, and I want to ensure 
that Congress and the FCC serve the best interests of the 
American people.
    Mr. Chairman, if we don't execute this plan comprehensively 
and thoughtfully, we will miss out on a huge opportunity while 
also setting back the short-term and long-term technology needs 
of the American people.
    I am therefore interested in hearing this Commission's 
discussion especially on how the adoption of the broadband plan 
can help to drive our economy out of its current doldrums by 
stimulating new jobs as well as opportunities for small 
business and innovative entrepreneurs. The plan as it currently 
reads does not provide any recommendations however on how small 
minority businesses and similarly the American economy, and I 
think the plan should. I think this is a stunning omission, 
and, Mr. Chairman, with that said, I yield back the balance of 
my time.
    Mr. Boucher. Thank you very much, Mr. Rush. The gentleman 
from Vermont, Mr. Welch, is recognized for two minutes.
    Mr. Welch. Thank you very much, Mr. Chairman. Two points 
and one observation. First the work that you are doing is 
absolutely critical to the future economic growth of this 
country, and what you have presented is a solid plan that 
embraces competition, and acknowledgement if we are going to 
have competition, we have to have access to the wires and the 
spectrum. And we have to have universal service so it is going 
to reach the most remote parts of our tremendous country.
    Second, you have done this on a bipartisan basis, and I got 
to tell you that is pretty unique around here. And I want to 
thank you for that. And this is my observation. You have taken 
a very difficult topic, presented a solid plan, and done it on 
a bipartisan basis. And it is so effective, you may embarrass 
us into trying to do the same. Thank you. I yield back.
    Mr. Boucher. Thank you, Mr. Welch. The gentleman from 
Washington State, Mr. Inslee, is recognized for two minutes.
    Mr. Inslee. Thank you. I just want to note the work you are 
doing is helpful to improve our health reform efforts, which 
are new and still building. I just want to point one instance 
where our broadband policy can help the city of Republic, 
Washington, eastern Washington. We essentially have to turn off 
all the computers in Republic, Washington if you want to send 
an x-ray from Republic to have it read by a diagnostician in 
Seattle. That is unacceptable. This is part of the health 
reform effort as well.
    I just want to make three quick points. First, I appreciate 
the plan's effort to complete our white spaces program which 
would free up spectrum, could allow the geniuses who are coming 
to create these new technologies. It is very exciting to get 
that done.
    Second, I am pleased that you support essentially the 
direction, the moving in our spectrum allocation provision. We 
passed the bill in this committee to get that done, and you 
have joined us in that effort. We hope that will actually be a 
while before we even get the next version of the report out.
    Third, I am pleased that you got the public safety block. 
We have some ideas how to move forward. This is very 
frustrating to all of us to not to have an interoperable system 
at this late, late, late date with our law enforcement officers 
not having--and firefighters not having systems. Got to get 
that job done. I think we are on the right track. Thank you.
    Mr. Boucher. Mr. Inslee, thank you very much, and thanks to 
all members for being expeditious this morning. Well, you have 
heard from us. Now we get to hear from you, and we would like 
to welcome the members of the Federal Communications 
Commission. The Chairman, Julius Genachowski, Commissioner 
Michael Copps, Commissioner Robert McDowell, Commissioner 
Mignon Clyburn, and Commissioner Meredith Baker. Without 
objection, your prepared written statements will be made a part 
of the record. We would welcome your oral summaries and ask 
that you keep those to approximately five minutes so that we 
will have ample time to question you.
    Chairman Genachowski, we welcome you, and we will be happy 
to hear your statement.

      STATEMENTS OF JULIUS GENACHOWSKI, CHAIRMAN, FEDERAL 
  COMMUNICATIONS COMMISSION; MICHAEL J. COPPS, COMMISSIONER, 
    FEDERAL COMMUNICATIONS COMMISSION; ROBERT M. McDOWELL, 
  COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION; MIGNON L. 
 CLYBURN, COMMISSIONER, FEDERAL COMMUNICATIONS COMMISSION; AND 
  MEREDITH ATWELL BAKER, COMMISSIONER, FEDERAL COMMUNICATIONS 
                           COMMISSION

                STATEMENT OF JULIUS GENACHOWSKI

    Mr. Genachowski. Thank you, Chairman Boucher, Ranking 
Member Stearns, members of the committee. Thank you all for the 
chance to testify in the National Broadband Plan. The plan 
addresses the opportunities and challenges of broadband high-
speed Internet in a way that reflects a strong conviction that 
as our Nation rebuilds its economy, broadband can and must 
serve as a foundation for long-term economic growth.
    Mr. Boucher. Chairman Genachowski, if I could get you to 
pull that microphone just a little bit closer, we can hear you 
better.
    Mr. Genachowski. How is that?
    Mr. Boucher. That is much better. Thank you.
    Mr. Genachowski. A foundation broadband for long-term 
economic growth, ongoing investment and enduring job creation. 
Multiple studies tell us the same thing. Even modest increases 
in broadband adoption can yield hundreds of thousands of new 
jobs. A broad array of people throughout the ecosystem, 
investors, entrepreneurs, business leaders, labor leaders, 
consumer advocates, and others agree that if the U.S. has 
world-leading broadband networks, we will see a powerful new 
wave of innovation in business and job creation here at home.
    The title of one recent op-ed written by the CEO of a major 
American technology company said it well. Fix the bridges but 
don't forget broadband. Now we have real work to do to seize 
the opportunities of broadband. The status quo is not good 
enough. Notwithstanding the many positive and even exciting 
developments in the U.S. around wired and wireless broadband, 
our country is not where it should be or needs to be to 
maintain our global competitiveness in our rapidly changing 
world.
    First, the U.S. is lagging globally as several studies 
show, as low as seventeenth in one broadband study, and 40th 
out of 40 among countries surveyed in the rate of change of 
innovative capacity. That tells us that other countries are 
improving faster than the U.S.
    Second, certain communities within the U.S. are lagging. 
Rural Americans, low-income Americans, African Americans, 
Hispanic Americans, seniors, tribal communities, Americans with 
disabilities, for these groups, adoption rates are much lower 
than the 65 percent national average, which is itself much 
lower than other countries and much lower that what we would 
tolerate for vital infrastructure like electricity or 
telephones.
    Altogether, 93 million Americans are not connected to 
broadband at home, including 13 million children, and 14 
million Americans do not have access to broadband where they 
live even if they want it. That is too many.
    Third, the costs of digital inclusion grow higher every 
day. Several years ago, not having broadband could have been 
thought by some to be simply an inconvenience. Now broadband 
access and digital literacy are essential to participation in 
our economy and our democracy. As I believe Congress 
anticipated when it directed the FCC to prepare a National 
Broadband Plan, the plan the FCC has submitted is a plan for 
action and a call to action that these times require.
    The terrific FCC staff and broadband team have produced a 
team that is as strong as it is nonideological and nonpartisan. 
It was the outcome of an extraordinary process that has been 
unprecedented in so many respects, unprecedented in its 
openness and transparency, in the breadth and depth of public 
participation and its professionalism, and in its focus on data 
and analytical rigor.
    The plan sets ambitious goals for the country, including 
access for every American to robust and affordable broadband 
services and the skills to subscribe, broadband speed of at 
least one gigabyte to at least one library, school, or other 
public anchor institution in every community, affordable 
hundred megabytes per second to 100 million households, world 
leading mobile innovation with the fastest and most extensive 
wireless networks of any nation, access for every first 
responder to a nationwide interoperable broadband public safety 
network.
    In addition to these and other goals, the plan lays out a 
robust, sensible, and efficient roadmap for achieving them. 
Among other things, it proposes a once-in-a-generation 
transformation of the Universal Service Fund from yesterday's 
technology to tomorrow's. It proposes recovering and unleashing 
licensed to unlicensed spectrum so that we can head off the 
looming spectrum crisis and lead the world in mobile. It 
proposes ways to cut red tape, lower the cost to private 
investment, and accelerate deployment of wired and wireless 
networks. It proposes initiatives to foster vibrant competition 
and empower consumers. It proposes a roadmap to tackle vital 
inclusion challenges so that everyone everywhere can enjoy the 
benefits of broadband, and it proposes ways in which broadband 
can be deployed to help solve many of our Nation's challenges 
including education, health care, energy and public safety.
    I am heartened that a broad array of companies as well as 
nonprofits, consumer and public interest groups have voiced 
strong support for the plan. If I may read what John Chambers, 
CEO of Cisco, wrote in Business Week, ``the vital communication 
systems that make our economy work and serve as a platform for 
business innovation and social interaction are second class.'' 
Sadly, many of us have accepted that. It is time to overcome 
our broadband complacency. The National Broadband Plan sent to 
Congress by the FCC is critical to our economic and national 
security. Without a plan, we simply cannot compete.
    I believe the plan will deliver extremely significant 
economic and fiscal benefits over time as broadband is 
harnessed for job creation and new investment. I believe the 
plan is fiscally prudent, respecting the primacy of private 
investment and identifying opportunities for billions of 
dollars in spectrum auctions.
    As we move forward, I look forward to working with members 
of the committee on the broadband plan and on all ideas to 
unleash the power of broadband, the technology with the 
greatest potential since the advent of electricity to advance 
our economic and social well-being to the benefit of all 
Americans. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Genachowski follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Boucher. Thank you, Chairman Genachowski. Commissioner 
Copps.

                   STATEMENT OF MICHAEL COPPS

    Mr. Copps. Good morning and thank you, Chairman Boucher, 
Ranking Member Stearns, members of the subcommittee for having 
us up here today to discuss the National Broadband Plan. This 
is something, as many of you know, that has been near and dear 
to me for the almost nine years that I have been at the 
Commission.
    I had long lamented our Nation's lack of a broadband 
strategy in a competitive world where other nations were 
leaving in the digital dust. Now that has changed. We have a 
roadmap. We have set our compass on due north. We know where we 
want to go, and we are setting off down that road. At last we 
begin to walk the broadband walk.
    We head down this road not because broadband is some 
technophile's dream or some cool new tool, but because of the 
dawning realization that high value broadband is the great 
enabler of our time. This technology infrastructure intersects 
with just about every great challenge confronting our country 
today. Jobs, business growth, education, energy, the 
environment, international competitiveness, health care, 
overcoming disabilities, opening doors of equal opportunity, 
news and information, and our democratic dialogue, there is no 
solution to any of these challenges that does not have a 
broadband component to it. Now we understand.
    So it was music to my ears when Congress called for the 
development of National Broadband Plan. Under the visionary 
leadership of Chairman Genachowski and with the hard work of an 
impressive FCC team, and in the most open and transparent 
process I have witnessed at the Commission, we now have a plan 
with clear objectives and a considered strategy aimed at 
ensuring that everyone in this country has equal opportunity in 
this new digital age, no matter who they are, where they live, 
or the particular circumstances of their individual lives.
    Foremost among our charges is digital inclusion. Every one 
of our citizens must have access to this enabling technology in 
order to participate fully in 21st century life. You won't get 
a job without it. You won't be safe without it. You can't be 
well educated without it. You cannot be an engaged citizen 
without it. So surely America cannot afford to have any digital 
divides between haves and havenots, between those living in big 
cities and those in rural areas or tribal lands, between the 
able-bodied and people with disabilities.
    Broadband must leave no American behind, including the 
original Americans, Native Americans. I encourage the broadband 
team to make sure this plan works for Indian country, and I am 
pleased with the recommendations that have been delivered. I 
also wanted to ensure that the plan was aimed at providing full 
accessibility to persons with disabilities. These are folks who 
ask nothing more than an equal shot at being fully productive 
citizens, and broadband can make that so much more achievable 
if we get it to them. My written testimony elaborates on these 
two points.
    Let me also very quickly say how pleased I am that the plan 
addresses the need for better research and development efforts 
in our society and, of course, pleased about the public safety 
plan, which we will talk about.
    I want to spend my last couple minutes on the perhaps less 
tangible but no less important dimensions of broadband. As our 
information infrastructure begins to migrate online, we 
becoming increasingly dependent upon broadband for news and 
information, for our civic engagement, for our democratic 
dialogue. America's future town square will be paved with 
broadband bricks. We need to make sure it is available to all 
and open to all.
    With high-speed Internet, those who are connected can have 
the world at their fingertips. For the unconnected, it is 
beyond their reach. An increase of technology does not by 
itself, however, guarantee a more informed citizenry. Neither 
does just hooking everybody up to broadband. A well-connected 
nation does not equate to a well-informed nation without 
significant effort. Put another way, a nation connected but not 
informed or civically engaged is about as useful to democracy 
as a plugged-in lamp with no light bulb.
    I believe that our country's democratic dialogue will 
suffer if the same harms that have been inflicted on 
traditional media are allowed to undercut the potential of new 
media in the digital age.
    Time happily spares you my extended remarks on the subject, 
but we all know journalism is in trouble. Journalism is at 
crossroads, and we better do something about how the American 
people are going to receive the news and information we need in 
a world where the town square is going broadband and where a 
critically important public interest has somehow to be 
safeguarded. Any viable solutions will have to address both 
traditional media and online media. And I am pleased that the 
National Broadband Plan recognizes the need to come to terms 
with the news and information implications of the digital 
transition.
    I look forward to working on this with the members of this 
subcommittee. Each of the Commissioners would have, I am 
certain, some variations on the plan that has been presented. 
In matters involving the reclamation of spectrum, for example, 
I will be especially vigilant that nothing we do decreases the 
already scarce diversity we have in programming or in media 
ownership. Every local voice that disappears runs against the 
grain of the public interest.
    Regarding competition in our telecommunications industries, 
it will take great vigilance to ensure that consumers in our 
present consolidated environment can have more access to 
competitive providers. This may require some very tough 
decisions, but I believe the plan provides ample opportunity 
for us to tackle and resolve such problems as we proceed.
    My final comment is on an issue I try to highlight every 
time I come before you. It is the need to facilitate the work 
of the Commissioners by modifying the closed meeting rule that 
prohibits more than two of us ever talking together and sharing 
our experiences about the great issues before the Commission. 
My experience has shown me that this has had pernicious and 
unintended consequences, stifling collaborative discussions 
among colleagues, delaying timely decision-making by the 
agency, and short-changing the pubic interest.
    I note the Representatives Stupak, Eshoo, and Doyle have 
introduced legislation to correct this. I believe the 
legislation they have introduced would constitute a major a 
reform of the Commission procedures as any that I can 
contemplate. Thank you for the opportunity to testify today, 
and I look forward to your comments, your guidance, and your 
questions.
    [The prepared statement of Mr. Copps follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Boucher. Thank you very much, Commissioner Copps. 
Commissioner McDowell.

                  STATEMENT OF ROBERT McDOWELL

    Mr. McDowell. Thank you, Mr. Chairman and Ranking Member 
Stearns and all members of the committee. It really truly is a 
privilege to be before you today. The broadband plan offered up 
last week by the Office of Broadband Initiative does represent 
a tremendous amount of hard work and thoughtfulness. However, 
it was not put to a Commission vote and contains no rules, and 
that is because the plan represents the beginning of a process 
and not the end of one.
    While we may disagree at times on the best paths to follow 
during our upcoming journey, we can all agree on at least the 
primary destination, a country that offers faster broadband 
access to more Americans at affordable prices.
    Before going further, however, all policymakers involved 
should pledge to do no harm. Precisely because the FCC 
classified broadband services as less regulated information 
services, we have seen a deployment and adoption of broadband 
technologies flourish. As the plan itself asserts, the number 
of Americans who have broadband at home has grown from 8 
million in the year 2000 to nearly 200 million last year. In 
fact, today out of 114 million households, only 7 million lack 
access to broadband. Some form of broadband is available to 
roughly 95 percent of Americans while over two-thirds have 
actually subscribed.
    One especially bright gem in America's economy is the 
phenomenal growth in wireless broadband adoption. Mobile 
broadband was virtually unheard of in the year 2000. By the end 
of last year, however, an estimated 100 million Americans 
subscribe to wireless broadband technologies. We lead the world 
in 3G buildout and adoption.
    Furthermore, America is home to more wireless companies 
than any other country. More than half of all Americans have a 
choice of five wireless providers. 94 percent have a choice of 
four. Not only has investment and innovation been dynamic in 
the telecom core of the Internet environment, but economic 
activity at the edge of networks has been nothing short of 
explosive as well.
    For instance, last year Americans again lead the world by 
downloading over 1.1 billion applications onto their mobile 
devices. Not only does the United States have one-third of the 
world's market share of mobile apps, but the American mobile 
app market has grown over 500 percent since the year 2007.
    In fact, some researchers estimate that annual domestic 
mobile app downloads will reach nearly 7 billion by the year 
2014.
    The Internet is an environment that is growing and evolving 
faster than any individual company or government can measure. 
The Net operates in an open and free marketplace where 
innovation and investment are thriving. In fact, some estimate 
that private sector investment in broadband infrastructure 
exceeded $60 billion last year alone.
    Any policies the government adopts should nurture and 
strengthen these trends and not undermine them. For instance, 
cable modem services alone are available to 92 percent of 
American households. Merely by upgrading cable networks with 
the DOXIS 3.0 system, which is expected to happen over the next 
few years anyway, over 104 million American homes will have 
access to speeds of up to 100 megs. Unless the government 
provides disincentives to investments, the broadband plan's 
goal of reaching 100 million households with 100 meg services 
should be attained well before the year 2020 if we allow 
current trends to continue.
    In that spirit, I question calls for further regulating one 
of the brightest spots of the American economy. Chapter 17 of 
the Plan opens the door to classifying broadband services as 
old-fashioned, monopoly-era, circuit-switched, voice telephone 
services under Title Two of the Communications Act of 1934.
    Broadband has flourished because of the absence of such 
regulations, and let me clear up a persistent myth. Broadband 
has never been regulated under Title Two. Not only would such a 
classification likely fail on appeal, I also don't see how 
foisting regulations first devised in the 19th century would 
help a competitive 21th century marketplace continue to thrive.
    The plan does contain ideas that are worth exploring 
further however. For instance, bringing more spectrum to market 
should continue to be a priority for the Commission, as it has 
been for the past several years. We should place a special 
emphasis on frequencies that are lying fallow or are underused, 
particularly spectrum held by the government when auction 
spectrum should remain unencumbered by regulation.
    At the same time, however, the Commission should encourage 
more efficient use of the airwaves in addition to rapid 
buildout. The need to use spectrum efficiently is inevitable, 
so we should work to stay ahead of the spectral efficiency 
curve.
    Additionally, the plan calls for comprehensive reform of 
the universal service subsidy rules. This system is broken, 
plain and simple. Our first priority, however, should be to 
contain costs. The contribution factor, a tax of sorts, which 
is directly paid by consumers, has ballooned from 5.53 percent 
in 1998 to over 15 percent today. This trend hurts American 
consumers and is unsustainable. In its current condition, the 
Universal Service Fund cannot support additional obligations.
    I have outlined many other ideas in my written statement. 
In the meantime, I look forward to working with Congress and my 
Commission colleagues to adopt policies that allow investment, 
innovation, job growth, competition, and adoption in the 
broadband market to continue. Thank you, Mr. Chairman. I look 
forward to your questions.
    [The prepared statement of Mr. McDowell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Boucher. Thank you very much, Commissioner McDowell. 
Commissioner Clyburn.

                  STATEMENT OF MIGNON CLYBURN

    Ms. Clyburn. Thank you, Mr. Chairman, Ranking Member 
Stearns and members of the subcommittee.
    Mr. Boucher. Yes, your microphone please.
    Ms. Clyburn. That might help. Thank you.
    Mr. Boucher. Thank you.
    Ms. Clyburn. Thank you, Mr. Chairman, Ranking Member 
Stearns, and members of the subcommittee. It is an honor and a 
privilege to appear before you today to discuss the National 
Broadband Plan. Over the past nine months, the FCC undertook 
the mammoth task of developing a blueprint for this Nation that 
aims to bolster our standing as a world leader in technology, 
business, and inclusion. Under Chairman Genachowski's 
leadership, this process was conducted in an unprecedented open 
and transparent manner in order to ensure that we maximized 
opportunity for public input.
    There are three issues in particular that I wanted to touch 
on today. In my view, each of these warrants our upmost and 
immediate attention. One, fostering the development of a 
nationwide interoperable public safety network. Two, ensuring 
an environment conducive to universal broadband adoption. And 
three, cultivating vibrant competition in the broadband 
marketplace.
    Developing a nationwide interoperable public safety network 
is no easy task. This fact, however, is no excuse for where we 
stand today. It is inconceivable that it will be almost nine 
years since the tragic events of September 11, 2001. We still 
have not meaningfully addressed this critical need. The 
National Broadband Plan attempts to meet this challenge. It 
offers concrete steps for a nationwide public safety wireless 
broadband network that will provide needed functionality and 
interoperability for the public safety community.
    The recommendations for the Emergency Response 
Interoperability Center and Congressional funding for the 
network in particular address two of the most fundamental 
building blocks necessary to make this network a reality.
    Moreover, the plan sets forth a rigorous program to make 
sure we get the details right, and the Commission has already 
put these ideas in motion by hosting a technical panel to 
review the finer points of the proposed network.
    Another indispensible part of the plan concerns broadband 
adoption. Approximately one-third of Americans have not adopted 
broadband at home. While some view this percentage as a 
success, there are reasons to be concerned. High-speed Internet 
is the gateway to opportunity and is fast becoming a 
requirement for meaningful citizenship. If you want to apply 
for a job, get more information on health-related issues, take 
classes that are unavailable in your town, unlock economic 
opportunities, be able to obtain government services, you must 
have direct high-speed access to the Internet. If we steamroll 
ahead without our fellow Americans joining us online, we will 
merely be reinforcing an underclass that will weigh heavily on 
our progress as a Nation.
    The plan also offers a critical recommendation with respect 
to the high cost of broadband. Specifically the plan recommends 
wholesale reform of the Universal Service Fund to both make it 
more efficient and enable it to directly support broadband 
service. This process requires assessing and adjusting nearly 
every aspect of the current USF support methods as well as the 
intercarrier compensation system.
    The third element central to a successful broadband 
strategy is competition. Competition is the lifeblood of 
investment, innovation, and affordable prices. Without it, 
industry has little reason to upgrade its facilities and 
improve its services.
    A cable industry executive noticed as such, informing 
investors that there is simply no need for the company to roll 
out the faster Internet speeds available today in areas where 
it does not have competition from another high-speed provider. 
Thus, only in areas where Americans are lucky enough to have 
more than one provider with truly high-speed capability will 
providers like this one have any economic incentive to offer 
better service. The same holds true for prices. There is little 
question that where there is limited or no competition, 
consumers pay higher prices for broadband.
    Indeed, just recently we saw a new spike in prices levied 
by providers on the lowest tiers of service. When such across-
the-board increases occur, our role as stewards of the public 
interest requires us to examine the market carefully and take 
appropriate action where necessary.
    In closing, I would like to express my gratitude to my 
colleagues and my enthusiasm for working with them to address 
the challenges ahead. I also want to recognize the important 
work of the committee. I look forward to engaging 
constructively with you in the weeks and months ahead.
    The American people rely on us to work cooperatively to 
ensure that we implement a National Broadband Plan that is good 
for consumers and that helps drive our economy. Thank you again 
for the opportunity to appear before you today, and I look 
forward to answering any questions you may have.
    [The prepared statement of Ms. Clyburn follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Boucher. Thank you very much, Commissioner Clyburn. 
Commissioner Baker.

               STATEMENT OF MEREDITH ATWELL BAKER

    Ms. Baker. Thank you very much, Mr. Chairman, Ranking 
Member Stearns, and members of the subcommittee. Good morning 
or almost afternoon now. It is really a privilege to appear 
before you today. I look forward to working with you as we 
consider the many important issues that have been raised in the 
National Broadband Plan.
    I would like to share just a few remarks with you here this 
morning, hitting many of the topics that my companions have, as 
you have also, as I understand my full statement will be 
entered into the record.
    Broadband in America is a success story. Under a light-
touch, targeted, regulatory regime in both the Clinton and the 
Bush Administrations, we have gone from a narrow band dialup 
world to a multi-platform broadband world by crafting a 
regulatory framework that promotes facilities-based 
competition, not prescriptive government requirements.
    Private industry from every communication platform has 
responded to this consistent framework with substantial network 
investment and deployment to the great benefit of consumers. 
This has resulted in broadband availability to 95 percent of 
Americans and healthy competition from rival providers. Indeed, 
there are only 7 million households where market forces have 
yet to yield a wired broadband provider.
    Yet there is more work to be done, and I am pleased to be 
here talking about the National Broadband Plan. Turning to the 
National Broadband Plan itself, there are places where I would 
have made different recommendations and suggestions, but I am 
grateful to the Commission's broadband team for its hard work 
and find that significant parts of the plan deserve careful 
consideration. I would like to say a few words about three key 
priorities from the plan today.
    First, as I have said since I arrived at the FCC, one area 
of prompt government action is spectrum policy. One of the 
plan's most important recommendations is the call for more 
comprehensive, long-term approach to spectrum management. The 
continued success of state-of-the-art mobile broadband depends 
on our ability to align our spectrum policies with the changing 
needs of consumers and industry.
    Other nations, like Germany and Japan, are already planning 
significant additional blocks of spectrum to be auctioned for 
mobile broadband. The U.S. must act similarly to lay the 
foundation for the next generation of mobile innovation, 
machine-to-machine communications, mobile health, and a 
meaningful alternative to fixed broadband.
    I hope our policies in this area will be guided by three 
overarching objectives: facilitating efficient use of spectrum, 
identifying and reallocating additional spectrum, and 
encouraging investment and innovation in wireless networks and 
technologies.
    The second policy area is Comprehensive Universal Service 
Fund and intercarrier compensation reform targeted to broadband 
investment in unserved areas. We need to update our funding 
mechanisms to reflect a broadband world, and we must do so in a 
manner that ensures accountability and efficiency. We need to 
do this in a manner that does not expand the size of the $9 
billion fund. Consumers pay for this. The universal service 
contribution factor for next quarter will be the largest ever, 
15.3 percent. This is real money. A $6 tax on a $40 phone bill.
    Third, nationwide public safety interoperability must be a 
top priority. I believe the plan's recommendations are an 
appropriate place for us to start, focusing on the sufficiency 
of first responder funding and available spectrum resources. 
The need for interoperability was highlighted in the 9/11 
report and devastatingly illustrated in the aftermath of 
Hurricanes Katrina and Rita. We must move forward expeditiously 
to provide the communications tools our Nation's first 
responders deserve.
    As we consider all of the plan's recommendations, our 
broadband policy should be focused on these efforts directly 
tied to promoting adoption, deployment, and facilities-based 
competition. We should build upon the strong regulatory 
foundation that we have before us, harnessing private 
investment, encouraging entrepreneurs and inventors to provide 
better broadband to more Americans.
    I am concerned that some of the proposals referenced in the 
plan have the Commission chart a more radical path, changing 
our market-based regulatory framework midcourse in a manner 
that could diminish our much-needed emphasis on adoption and 
chill the private investment we need for our broadband 
infrastructure.
    We must, in particular, resist efforts to adopt rules in 
the network neutrality proceeding that would dictate how 
networks are managed and operated. I have attended two 
technical workshops and reviewed the record on net neutrality, 
and I have yet to see any evidence of a systematic problem that 
needs to be addressed today.
    We also should reject calls to regulate the Internet under 
monopoly-era Title Two rules and rebuff unbundling proposals 
that selectively forget our long and checkered history with 
government-manufactured competition.
    Lastly I am hopeful we avoid one-size-fits-all approaches 
to broadband. This is particular true with respect to 
affordability, relevancy, and literacy adoption hurdles facing 
a third of Americans today. Each one of them has its own 
importance. Thank you again for the opportunity to be here 
today, and I look forward to your questions.
    [The prepared statement of Ms. Baker follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Boucher. Thank you very much, Commissioner Baker, and 
thanks to each of the Commissioners and the Chairman for your 
thoughtful comments to us today. We appreciate you sharing some 
of the rationale you have had in developing this comprehensive 
and very well-constructed plan.
    Commissioner Genachowski, I was very pleased to note the 
ambitious deadlines that you have set forth in the plan for at 
long last achieving the competitive availability of set-top 
boxes. I think that if consumers could shop for set-top boxes 
in the store and choose boxes that have varied functionality, a 
variety of different functions available from different 
manufacturers, all of which are compatible with every cable 
system and every satellite system for delivering multi-channel 
video, we would see tremendous innovation in the market for the 
origination of these devices.
    And I think we would soon see devices on store shelves that 
would have functionality well beyond the typical set-top box 
you buy from the cable company or the satellite company today. 
So I commend you for setting forth these ambitious deadlines. 
This is not a new issue, and in fact, it is 15 years old. In 
the '96 Communications Act, we directed the Commission to move 
forward with the rule making in order to assure the competitive 
availability of these set-top boxes.
    And still today consumers can't go to the store and shop 
for a variety of different set-top boxes. So I am glad to see 
the recommendation. I would ask you if you agree with me that 
rather than putting forth a mere notice of inquiry and 
continuing for a much longer period of time the discussion 
about this, it is now time to move to a notice of proposed rule 
making. I think it is. I hope you would agree, and I would ask 
for your response.
    Mr. Genachowski. Well, first of all, thank you for raising 
that topic. It is an important one.
    Mr. Boucher. And if you could pull the mike a bit closer, 
we could hear you better.
    Mr. Genachowski. All right, I think you mentioned Congress 
did require competition in this area. We have seen much less 
competition and innovation than we could have. The reason that 
it is in the broadband plan is that the team realized during 
its work that while computers are only in about 76 percent of 
homes, TVs are in almost 100 percent of homes. And so if we can 
unleash this particular market, that can help accelerate our 
broadband goals.
    With respect to the exact process, I would be happy to work 
with you. I think that it is the intention to move as 
expeditiously as possible. We haven't made a final decision on 
the process to use, but I would be happy to----
    Mr. Boucher. Well, thank you very much. I would encourage 
you to give very serious favorable consideration to going right 
to a rule-making. We have been discussing this for 15 years. 
This time enough.
    Secondly you appear to be recommending a role for local 
governments, municipalities across the country in helping to 
deploy broadband. I share that aspiration. In fact, in past 
Congresses, I have introduced legislation that would free local 
governments to offer broadband particularly where there are 
gaps and for whatever reason the commercial providers have not 
offered an array of competitive services for broadband.
    Does the mention of this in your broadband plan imply 
support for legislation that would remove the roadblocks that 
various states have erected to their municipalities offering 
broadband? And would you recommend that we adopt legislation 
effectively preempting those roadblocks and freeing communities 
nationwide in order to deploy broadband services?
    Mr. Genachowski. Well, Mr. Chairman, if I could not comment 
on specific legislation, although we would be happy to be a 
resource to you on that. The goal of unleashing local 
governments to experiment and innovate around broadband access 
seems to me a highly desirable goal, and I would be pleased to 
work with you on the best path to encourage the kind of local 
experimentation that could be very----
    Mr. Boucher. Thank you, Mr. Chairman. Very diplomatic 
answers you are providing this morning. Let me use the balance 
of my time to talk a bit about D block. I think you are on the 
right track in recommending that the D block of the 700 
megahertz spectrum, the only part of the 700 megahertz still in 
government hands be auctioned, and auctioned essentially 
without the kinds of onerous conditions that attached to the D 
block auction several years ago that caused that auction to 
fail.
    So I heartily endorse your idea of auctioning without those 
kinds of conditions. I have two questions. First of all, would 
you need legislation in order to devote the proceeds to that 
auction in some significant part or perhaps totally to the 
buildout of equipment for fire, police, and rescue nationwide?
    Mr. Genachowski. I believe we would.
    Mr. Boucher. I agree, and we will certainly work. I am 
working now with Chairman Waxman to structure a bill that would 
provide that clear authority. The second question I have 
relates to your proposal that the winners in the D block 
auction and also the holders of all 700-megahertz spectrum, 
that would include the cellular companies that prevailed in 
previous 700-megahertz auctions, provide roaming access to 
first responders at reasonable rates and also give priority 
access to first responders at times when the public safety 
spectrum is either fully occupied or for other reasons 
unavailable.
    Now, that recommendation on its face may give pause to some 
who would consider taking part in an auction because it needs 
better definition. So I suppose my direct question to you is 
how does that requirement, were it to be a part of your auction 
rules, relate to the existing priority, a wireless priority 
system, that is in place today for federal personnel? Would it 
be a simple extension of that which might prove to be not so 
onerous, or would it be something beyond that that might prove 
to be more onerous?
    Mr. Genachowski. Mr. Chairman, the goal is to adopt a set 
of rules that would not be onerous and that would allow us 
finally to move forward and deliver on the 9/11 Commission 
recommendations. It will be the subject of the rule making. We 
will have plenty of opportunity for input, but I am very 
pleased that four members on a bipartisan basis of the 9/11 
Commission have looked at our plan and said this is a very 
sensible way to go.
    Mr. Boucher. Well, thank you very much, Mr. Chairman. We 
appreciate your being here and sharing these thoughts with us. 
The gentleman from Florida, Mr. Stearns.
    Mr. Stearns. Mr. Chairman, thank you very much, and I ask 
unanimous consent to insert into the record the response that 
Chairman Genachowski sent to me about creation of this plan.
    Mr. Boucher. Without objection.
    Mr. Stearns. I noticed, Mr. Chairman, that you indicated 
you spent about $20 million to develop this plan. I think that 
works out about $50,000 a page or more, and it took you about a 
year, I think, to develop this plan. So in effect, $50,000 a 
day. I think when we developed the 1996 Telecommunication Bill, 
we didn't have a plan in there, and then later on, there was 
some talk about it. And your former Chairman Kinard said that 
in 1999, let me read his speech, that ``the fertile fields of 
innovation across the communications sectors and around the 
country are blooming because from the get-go we have taken a 
deregulatory, competitive approach to our communications 
structure, especially the Internet.'' So I think with those 
statements and this obviously predecessor of yours, do you 
agree with his statements?
    Mr. Genachowski. I agree. Yes, I do.
    Mr. Stearns. And they remain valid today?
    Mr. Genachowski. Yes, I would say making sure that we have 
policies that unleash investment, that encourage innovation----
    Mr. Stearns. Policies of the government, you mean?
    Mr. Genachowski. Well, you know, as you know in this area, 
whether it is spectrum, whether it is Universal Service Fund, 
there are policies that the government needs to be involved in 
and is involved with. The question for us is what kind of 
climate, what kind of policies could we make sure we have that 
promote investment, that promote innovation, that protect and 
empower consumers, that promote competition. That is how I look 
at it.
    Mr. Stearns. OK, Mr. McDowell, Mr. Welch has indicated this 
is a bipartisan plan, and I think you pointed out no one voted 
on it. It is true that you and Ms. Baker didn't vote on this 
bill. Is that correct?
    Mr. McDowell. That is correct.
    Mr. Stearns. And during the process this year that it was 
developed in, they spent $20 million. Were you ever consulted 
during the year, you and your staff? Were you called up and let 
in to participate in the development of this plan?
    Mr. McDowell. Absolutely.
    Mr. Stearns. OK, and you were, Ms. Baker, too?
    Ms. Baker. Yes.
    Mr. Stearns. When did you get a chance to see the final 
plan?
    Mr. McDowell. We saw the final text, the final drafts 
starting about 21 days before the March 18 meeting, so late 
February.
    Mr. Stearns. Late February?
    Mr. McDowell. Did you think it might be helpful that you 
had seen it earlier? I mean how do you feel about your 
participation?
    You know I think there is actually a benefit to the fact 
that there was not a vote, in that I think it allowed the 
broadband plan team to have the liberty to put in there what 
they saw fit to put in there.
    So I think there was actually a net positive. Obviously 
there are things I agree with and things I disagree with, as I 
think all of us can probably say that. So I think it was a net 
positive we did not have the vote and allowed them. Certainly I 
originally a year ago, long before Chairman Genachowski was 
even nominated, had said that a plan like this should be put 
out for public comment, but the Commissioner only had a year to 
do it. So I understand there were time constraints as well.
    Mr. Stearns. OK, Chairman Genachowski, the broadband plan 
recommends appropriating an additional $9 billion to convert 
the already $8 billion-a-year Universal Service Fund for 
broadband. Now if we have $7.2 billion in the stimulus package 
for broadband was appropriately spent, why do we need an 
additional $9 billion?
    Mr. Genachowski. Mr. Stearns, if I could--sir, that is not 
exactly what the plan says. First on Universal Service Fund, 
the plan outlines a road map for the FCC to cut and cap 
existing spend for telephone service and transition that 
funding to broadband without increasing the growth of the fund. 
So that over a 10-year period, the transition from the old USF 
to the new USF can happen without any additional funding.
    The plan goes on to say that if Congress thought it 
desirable to accelerate that transition, to have that 
transition happen faster than 10 years, it would cost several 
billion dollars over a few years to do that. And that is 
something that, as part of the development of the plan, it was 
thought should be presented for consideration.
    Mr. Stearns. Commissioner McDowell, Assistant Secretary of 
State Verdeer said that net neutrality could be employed as a 
pretext or as an excuse for undertaking public policies that we 
would disagree with pretty fundamentally. Just days earlier, 
the president of Venezuela called for regulation of the 
Internet while demanding authorities crack down on a news Web 
site that was critical of him. ``The Internet can't be 
something free when anything can be done and said. No, every 
country has to impose its rules and regulation'' is what he 
said.
    How do we hold other countries to higher standards if we 
ourselves are beginning to get involved with regulation? Or 
perhaps you might just comment on some of the comments that the 
assistant secretary of state said as well as what the president 
of Venezuela said.
    Mr. McDowell. Well, I will let Ambassador Verdeer speak for 
himself, but I have for quite some time now expressed similar 
concerns that as governments encroach more into the area of 
network management of the Internet that we really start to lose 
the moral high ground. What appears to be reasonable to us may 
not appear reasonable to other countries and vice versa.
    Actually as Commissioner Baker said, since the Clinton/Gore 
Administration, it has been the policy of the U.S. government 
that network management issues and the governance of the 
Internet should be left to nongovernmental bodies such as the 
Internet Engineering Task Force and others. And this has worked 
quite well. What has really made the Internet so robust and 
growth there so explosive is in effect it is somewhat lawless, 
that it is positively chaotic in a positive and constructive 
way. And I think we do need to be very cautious before we 
venture into this area further.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you, Mr. Stearns. The chairman of the 
Energy and Commerce Committee, the gentleman from California, 
Mr. Waxman, is recognized for five minutes.
    Mr. Waxman. Thank you, Mr. Chairman. Before I begin my 
questions, I would like to correct an assertion made by 
Commissioner McDowell that broadband has never been regulated 
under Title Two. DSL broadband was a Title Two service until 
August 2005 when the Commission moved it to Title One.
    I would like to ask a question about the plan's 
recommendations regarding the creation of a nationwide 
interoperable broadband network for public safety. I know that 
all parties agree that the problem of interoperability needs to 
be resolved, but it seems like there is a strong disagreement 
regarding what we should do with the D block. Chairman 
Genachowski, in your February 25, 2010 remarks, introducing the 
public safety recommendations, in the plan you emphasized that 
you directed FCC staff to begin anew, not take anything for 
granted, be data-driven and creative, and come up with the best 
policy recommendations to achieve success. Do the 
recommendations in the plan reflect that direction?
    Mr. Genachowski. Yes, they do. Admiral Jamie Barnett, an 
extraordinary public servant, has led up our efforts to do 
this. That was the charge to him, and he has been committed 
with his team on developing a framework for finally delivering 
on the 9/11 Commission recommendation.
    Mr. Waxman. Was the staff free to recommend reallocation of 
the D block if that was the best plan for public safety?
    Mr. Genachowski. Yes.
    Mr. Waxman. And do you agree with the conclusion that 10 
megahertz of dedicated broadband spectrum in combination with 
access to additional commercial spectrum is enough to ensure 
public safety interoperability at this time? And what about the 
future?
    Mr. Genachowski. Yes, I agree with the very deeply thought 
through plan that was put together by the public safety team. 
In the future, there may be additional needs for spectrum. We 
need to recover more spectrum for a variety of purposes, that 
in the future we may need more spectrum for public safety, and 
it should be part of our strategic planning process over time.
    Mr. Waxman. Is it correct to say that the FCC's engineers 
and technical experts fully analyzed where the 10 megahertz of 
spectrum dedicated to broadband would yield adequate spectrum 
capacity? And did they do their due diligence on this question?
    Mr. Genachowski. Yes, I believe they did.
    Mr. Waxman. I would like to ask Commissioner Copps, 
McDowell, Baker, and Clyburn, is the approach outlined in the 
plan the best way to achieve interoperability in your view? Do 
each of you support the recommendation that the D block be 
auctioned for primarily commercial purposes?
    Mr. Copps. I support this plan. When I was acting chairman, 
one of the things that I did was direct our staff to go back to 
a basic put all the options on the table for the incoming 
chairman so we could really start and look at all options.
    As Commissioner Clyburn pointed out, we are eight years 
beyond 9/11 now. We have to get moving. This is a far more 
solidly grounded plan, a far more thought out plan. I am not 
saying it is the only plan, and I am not saying all the 
questions are answered right this second. But I think this is 
the one to proceed on if it meets the approval of the Congress 
because Congress has a role here too.
    But I am happy we have, under the Chairman's leadership, 
moved the ball this far down the field. I think we have a 
unified plan here, and we shouldn't----
    Mr. Waxman. Well, let me ask your colleagues because--and 
maybe they can give me a yes or no answer because the time is 
running out. Do you support the recommendation D block be 
auctioned for primarily commercial purposes?
    Mr. McDowell. Thank you, Mr. Chairman. Very quickly, the 
transition component of that broadband has been regulators. 
Broadband services have never been regulated under Title Two. I 
will be happy if, Chairman, you will allow me to file something 
supplemental for the committee outlining the history of that. 
In any case, the D block, I think, primarily should serve as 
commercial services and should be auctioned off accordingly.
    Keep in mind that Congress in 1997 well before 2001, 
September 11, set aside 24 megahertz of the 700 megahertz 
block. That is sitting there. That is wonderful spectrum. It 
should be used for something other than narrow band voice. 
Public safety has at its disposal about 97 megahertz total of 
spectrum of various kinds. Not all apples, some apples and 
oranges but so----
    Mr. Waxman. So you agree with the----
    Mr. McDowell. It should be auctioned off commercially.
    Mr. Waxman. OK, Commissioner Clyburn.
    Ms. Clyburn. I believe that the auction model is 
comprehensive and pragmatic, yes.
    Mr. Waxman. Commissioner Baker.
    Ms. Baker. On balance, I agree with the plan.
    Mr. Waxman. OK, the plan recommends that Congress come up 
with very significant amounts of money to fund the construction 
and maintenance of the proposed network. Chairman Genachowski, 
does the $6.5 billion estimated for construction of the network 
account for state matching funds? And if the federal government 
were to contribute to the construction of this network, would 
it be reasonable to require states to pay a share of the cost 
associated with the construction?
    Mr. Genachowski. Well, Mr. Chairman, if I could, we would 
be happy to supply you the underlying work behind the $6 
billion. I am not sure of the answer to your question. I will 
say one thing if I could. To move forward on this now while 
commercial forging networks are being built out is the least 
expensive way to make sure that we build a public safety 
network. If we wait, the price will only go up.
    Mr. Waxman. Thank you very much. I look forward to moving 
on a bipartisan basis to meet the needs of the public safety 
community. I look forward to working with the FCC toward that 
goal. Mr. Chairman, I would like to put in the record a press 
comment by the FCC dated August 5, 2005 regarding the Title 
One/Title Two issue.
    Mr. Boucher. Without objection.
    Mr. Waxman. Thank you.
    Mr. Boucher. The gentleman from Michigan, Mr. Upton, is 
recognized for five minutes.
    Mr. Upton. Thank you, and again welcome, Commissioners. A 
number of us have a good number of questions. Chairman 
Genachowski, welcome again. First question for me is as it 
relates to the broadcast spectrum. As you know, we are working 
on legislation here. I think one of the things that we want to 
make sure is that you all do not force the broadcasters to give 
away or auction some of that spectrum. Are we on the same page 
on that?
    Mr. Genachowski. I think so. The need here is urgent for 
the country. Mobile broadband is as important a platform for 
job creation, innovation for decades to come. We have the 
opportunity to lead the world, but not if we don't have enough 
spectrum. What our team has done is develop a win/win/win plan 
for mobile broadband, for broadcasters, for the public that I 
would be happy to discuss with you further but that I think 
should work for everyone. And it is based on voluntary actions 
by broadcasters and an incentive auction that we hope Congress 
will authorize.
    Mr. Upton. I like those words. Mr. McDowell, we all, as we 
look to increase speeds, as I look at chapter four in this 
book, it seems to me that if there were a fiber unbundling 
requirement that it would hurt us dramatically as we try to 
deploy fiber networks in areas that do not have the broadband 
access today. I think you are in agreement on that. It would be 
wonderful if you might want to comment.
    Mr. McDowell. In the next couple of years, if we were to do 
that today, in the next couple of years, I think we would 
receive a tremendous amount of litigation. There are two 
decisions by the U.S. Court of Appeals for the D.C. Circuit, 
USTA 1 and USTA 2, that speak directly to these issues. And it 
is really at this point settled law as Commissioner Baker was 
saying. And I think we would be exposing ourselves to a 
tremendous level of litigation and ultimate loss if we tried to 
impose unbundling regulations on fiber that had been laid 
subsequent to those court cases especially.
    Mr. Upton. And, Chairman Genachowski, I noted that Brer 
Levin, the executive director of your broadband initiative, 
dismissed unbundling in a December 21, '09 interview as ``not 
very productive.'' The reason that he explained is the 
Commission is not that terribly--this is again in quotes--``not 
that terribly interested in moving towards things which will 
freeze capital investment and have long, complicated court 
battles,'' along the lines of what Mr. McDowell indicated. More 
importantly he observed these suggestions ``fail to look at 
what is really going on in the market.'' What are your thoughts 
as it relates to your executive director? Does he have good 
ground?
    Mr. Genachowski. The goals of promoting investment 
innovation in the sector are our highest goals. Promoting 
competition is one of if not the best strategy to get there. 
Unbundling is a word that creates more confusion, clarifies 
less. What the plan actually focuses on are some issues that we 
heard from business in the market, whether it is special 
access, whether it is providing choice for small businesses. We 
have heard many complaints from small businesses that they lack 
choice, that their prices are too high.
    And so the plan suggests several discrete areas where the 
record showed real competition issues, especially for small 
businesses, that it tees up an inquiry by the Commission. And I 
think it is important to look at those.
    Mr. Upton. But you understand the fear that we would have 
if you pursued such a course?
    Mr. Genachowski. Of course I do. Again the goals of the 
Commission very clearly are to adopt policies that promote 
investment, promote innovation, promote competition, and 
protect and empower consumers. That is what I have instructed 
the staff to look at every day.
    Mr. Upton. Now, as we look at this entire document, tell me 
what your next step is. What is the timeframe that you are 
going to try to embark on?
    Mr. Genachowski. Well, the staff has been working on an 
implementation schedule, and so in the period ahead, we will be 
announcing a schedule for implementing the plan. I think that 
there are, as I said during my opening remarks, I am not 
satisfied with the status quo. I think this is an extraordinary 
platform for job creation and investment. There are some very 
real problems that have been acknowledged on a bipartisan basis 
that we need to solve.
    So I am going to push to move forward as quickly as we can 
because I think it is critical for U.S. world leadership in 
this area.
    Mr. Upton. Thank you. Yield back.
    Mr. Boucher. Thank you, Mr. Upton. The gentleman from 
Massachusetts, Mr. Markey, is recognized for five minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much. The first 
broadband plan was the 1996 Telecom Act. And the 1996 Telecom 
Act, of course, actually resulted in broadband being regulated 
under Title Two. And from 1996 all the way until August of 
2005, broadband was under Title Two, just for the record.
    And during that period of time, we got a lot of policies 
that were implemented. Consumer protection, universal service, 
protecting consumer privacy, interconnection and competition 
provisions, access for individuals with disabilities, consumer 
billing protections. And what was also possible under Title 
Two?
    Well, under Title Two, the FCC could forbear if it wanted 
to, and it availed itself of that power right up until August 
of 2005 wherever it thought it was necessary. So I don't think 
we should pretend that going back to Title Two would mean that 
the earth would stop spinning on its axis and the end of time 
would be upon us. We can achieve a sensible policy, a balance 
in Title Two, just as others assert that we can achieve it in 
Title One.
    Now, I know that the FCC is fighting in court to defend the 
current Title One policy framework. Hopefully the court will 
uphold that, but if it doesn't, cool heads will prevail. And we 
will work with the FCC to ensure that all of the goals that are 
in this broadband plan, universal service, investment, 
competition, privacy, disability, access, will all be 
implemented. So the agenda for connecting America doesn't 
change if the FCC uses Title One or Title Two.
    I know that there are some people out there saying they 
shouldn't have the authority under Title One or Title Two. Kind 
of turn it into an agency that is just kind of enforcing the 
law without any ability to be rule makers, but I just 
completely disagree with that. History says that that is 
completely wrong, and the Telecom Act of '96 was a broadband 
plan. And this is the next iteration of it. This is broadband 
plan number two going forward for the 21st century. Do you 
agree with that interpretation, Chairman Genachowski, of the 
law?
    Mr. Genachowski. Congressman Markey, you----
    Mr. Markey. Can you turn on your microphone please?
    Mr. Genachowski. Sorry. You lived it, and so it couldn't 
possibly be wrong. During those years from 1998 to 2008, I was 
in the private sector. I was a business operator, and I was in 
investment. And I am very sensitive to the effects that poor 
policies can have on investment.
    I am confident that this FCC will tackle all of these 
issues in a way that has great respect for the private 
investment that we need to get to world leadership on 
broadband. And as you mentioned, the FCC has been operating 
under Title One. A company made a decision to challenge that in 
court. The FCC is defending it, but I believe we have the 
authority and that we will have the authority.
    Mr. Markey. OK, and I agree with that 100 percent. 
Otherwise the whole history of the Telecom Act of 1996 makes no 
sense because all of those regulations were implemented under 
Title Two. So it really doesn't make any difference except that 
there are some companies out there that enjoyed the forbearance 
that was engaged by the FCC during a particular period of time 
would just like to extend it in perpetuity, and I do not think 
that would be a good policy for our country. Competitiveness, 
Darwinian, paranoia-inducing competition is what America should 
be all about, not forbearing from competition but inducing it 
into every single aspect of this communications marketplace.
    That is how we got Hulu and YouTube and Google and EBay and 
Amazon. Not one home in America had broadband in February of 
1996 when the Telecom Act was signed. Not one home had 
broadband. Ten years later, we come back, and there is a 
completely different dialogue in our country.
    One final question. That is on the E-rate that 
Congresswoman Matsui and Capps and I have both introduced, have 
all introduced E-rate 2.0 Act to change the way in which we 
look at the E-rate to ensure that there is more access. How do 
you feel about that, Mr. Chairman?
    Mr. Genachowski. I think it is essential. I thank you, of 
course, and the committee for its work on E-rate over the 
years. One of the things that I see when I talk to teachers 
around the country is how frustrated they are by the fact that 
some of their kids have broadband access, some don't. And how 
frustrated that they are that their facilities, while we have 
connected classrooms, aren't good enough to give them what they 
want. So tackling that is a recommendation of the plan. It owes 
a lot to your leadership with respect to E-rate.
    Mr. Markey. We thank you, Mr. Chairman. We thank all of the 
Commissioners for their excellent work on this plan. It is 
going to actually play a historic role in ensuring that America 
regains its position as number one. Thank you.
    Mr. Boucher. Thank you, Mr. Markey. The gentlelady from 
California, Ms. Bono Mack, is recognized for five minutes.
    Ms. Bono Mack. Thank you, Mr. Chairman. First questions are 
the Commissioners Genachowski and McDowell. I am very concerned 
about the plan's recommendations to changes in the copyright 
law expanding the definition of fair use. Can you please 
explain why this is necessary?
    Mr. Genachowski. Sure, the first point to make is that it 
is very important that we make sure that the Internet is not 
only open but a safe place to do business, including by owners 
of copyrights. And so I have been very clear and the plan is 
very clear that we need to make sure that companies can enforce 
their rights and that we don't have rampant piracy on the 
Internet.
    Over the course of a broadband proceeding, we heard from 
teachers and some in the education community that pointed to 
some narrow issues where they said our ability to do what we 
would like to do in teaching is inhibited, and there may be 
some ways to fix that that don't challenge the fundamental 
point that protecting intellectual property is essential.
    Ms. Bono Mack. Mr. McDowell.
    Mr. McDowell. We want to encourage owners of copyrighted 
works to put them online. So they need to feel comfortable in 
doing so. That means they have to enjoy the strongest possible 
intellectual property rights protection. We have to allow them 
to work constructively and cooperatively with carriers to 
police and act against stolen intellectual property.
    So first of all, I should start off by saying we are not 
the expert agency on intellectual property or copyrights. But I 
am sounding a note of caution when it comes to any 
recommendations that could be seen as wanting to weaken 
intellectual property rights. I think what will actually help 
the proliferation of new content and applications online will 
be if we have strong intellectual property rights enforcement.
    Ms. Bono Mack. But there is almost no discussion in this 
whole document about legal content protection. Is it not a 
priority at all for the FCC? Just to either one of you.
    Mr. Genachowski. I believe there is some discussion. We 
would be happy to follow up with you on that. IP is not a 
central issue in the broadband plan, so there is an endorsement 
of the importance of copyright protections, and then there is 
an identification of an issue that was raised with us in the 
record with respect to education and the suggestion for further 
work on that.
    Mr. McDowell. I think if you look at Sections 11.4, 15.7, 
and 15.9, there you will see some discussion there. But some of 
the concerns that when I read it were that we could be 
suggesting a weakening of intellectual property rights 
protection.
    Ms. Bono Mack. Thank you. Just to echo my concern, in the 
document, the example you cite in fair use is actually, you 
said, teachers seeking to use Beatles' lyrics to promote 
literacy is the example that you cite. Now, in education, the 
best way we can improve literacy is to cite the Beatles? And 
this is the example you have used for this argument. Do you 
care to comment on that? Because you just spoke to this very 
comment about it being the example that was given to you was 
the Beatles' lyrics.
    Mr. Genachowski. I think what I would be happy to do is 
make sure that we share with your office the comments that we 
received from educators on their concerns in this area. And I 
am confident that the report emphasizes the importance of 
intellectual property and puts ideas on the table.
    As you know, it is not self-executing, but certainly we 
would be happy to be a resource to you. And I would be happy to 
supply the information that we received in the course of 
process on the issues that that section addresses.
    Ms. Bono Mack. I would appreciate that very much. Does 
anybody else care to comment?
    Ms. Baker. I would like to make a comment. I have not 
visited with the teachers or the educational community, so I 
can't speak to that. But I have visited with consumers and 
media companies. And video is driving broadband at option. And 
for media companies to put their expensive content on the web, 
they need to have assurance that it is going to be protected.
    And so I think it is very important that we consider this 
as we move forward with broadband, and that it is very 
important that we are protecting our intellectual property.
    Ms. Bono Mack. Thanks very much, Mr. Chairman. I yield 
back.
    Mr. Boucher. Thank you, Ms. Bono Mack. The gentlelady from 
California, Ms. Eshoo, is recognized for five minutes.
    Ms. Eshoo. Thank you to each one of you. I hung on every 
word of your testimony and welcomed it. So thank you again for 
the extraordinary work.
    We know that or I am convinced that you all, through your 
testimony and otherwise, that you recognize the need for speed, 
but I continue to have some concerns, especially when it comes 
to spurring competition with new and innovative uses of the 
spectrum. There are so many entrenched interests that seem to 
be able to stop new ideas from taking root through delaying 
tactics that keep the spectrum concentrated in the hands of the 
larger carriers. I think this concern has been raised by other 
members of the committee as well.
    If we are going to see that 100 megabytes reach 100 million 
homes, the FCC has to begin and complete rule makings faster so 
we can see immediate action. And I don't know what you all have 
to say about that. I think that perhaps it is more in the hands 
of the chairman. I might be wrong about that.
    I am disappointed that the advanced wireless spectrum, the 
AWS3, was not recommended for immediate deployment. You are not 
surprised by my comment, Mr. Chairman, on that. It was a 
proceeding that was teed up years ago, and I don't really think 
that businesses can either afford to or should be allowed to 
have to hang around and lose money for years.
    It is my understanding that the DOD's spectrum band that 
the National Broadband Plan, that you are considering pairing 
that spectrum with the currently jammed, I think it is jam-
packed with vital systems, including the drones. I put on my 
Intelligence Committee hat. The drones were air strikes in 
Afghanistan and Pakistan and border security here at home. And 
that these systems in the band cost over $100 billion and can't 
be relocated until 2030.
    I don't know if you want to comment on this. I don't really 
see the DOD giving up spectrum. So have you contacted the DOD? 
Has the DOD contacted you? That is my first question. And if 
you don't find paired spectrum by the October deadline that you 
outlined in the report, are you actually going to auction the 
spectrum and put it in use as soon as possible?
    I am going to continue on with my questions and then you 
can answer them. On the next generation 911, as I said, Mr. 
Shimkus and I are cochairs of the E-911 caucus. We have offered 
legislation, and if you have had a chance to take a look at it, 
what your take is on that.
    There are so many things to ask about. Of course, we are 
going to submit more questions that you can answer in writing. 
Public television and their broadcast spectrum issues, the 
public television stations are very different from commercial 
television stations as you obviously appreciate. As the 
Commission looks ahead the rule makings announced in the plan 
to reclaim the 120 megahertz of spectrum from these 
broadcasters.
    Can you give us any assurances that public television 
stations would be protected from involuntary reallocations of 
that spectrum? I think it is important that they are protected. 
I think they represent one of the treasures of our Nation. So 
those are my opening questions, and I am going to submit to 
you, to the Commission to respond to in writing.
    So whoever would like to answer, I welcome it.
    Mr. Genachowski. I would be happy to do so. On the first 
issue, our staff at the FCC and their colleagues at NCIA and 
other agencies have been talking about spectrum and with 
respect to the spectrum you mentioned, they have identified a 
potential opportunity that could be very good for the country 
in terms of pairing.
    I completely agree with you that it is a bad practice to 
extend proceedings, petitions indefinitely at the FCC, and one 
of the things that the plan did was put a deadline on 
exploration of this pairing alternative. And I believe the plan 
goes on to say that if the pairing is not possible, then the 
Commission should proceed, adopt rules, and auction that 
spectrum.
    With respect to E-911, I think we owe you and Congressman 
Shimkus thanks for the ideas because I believe that E-911 is 
discussed in the broadband plan certainly as part of looking to 
the future on public safety in the 21st century, and broadband 
tackling 911 and the way that people are actually using 
communication devices is essential.
    And on public TV, the answer to your question is yes, and I 
think for public TV too, there is an opportunity here for a 
win/win. And that is something that I hope we can work on with 
everyone together in the proceedings that will watch.
    Ms. Eshoo. Thank you very much, and I am very excited. It 
is as if the cobwebs are being cleared and we have a vision for 
our future. And I really look forward to working with the 
Commission and the full subcommittee on this. Thank you.
    Mr. Boucher. Thank you very much, Ms. Eshoo. Gentlelady 
from Tennessee, Ms. Blackburn, is recognized for five minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I want to 
thank you all again for being here. I have to tell you. The 
lack of attention to intellectual property and the way you are 
punting the question is a little bit troubling to me. I think 
that you have to look at the fact that broadband--you are 
talking about wanting broadband, a robust broadband deployment 
and expansion. And to not have some of the intellectual 
property protections--and I know that you are not the central 
agency that handles that, but I do think that it is worthy of a 
revisit from you.
    The expansion of fair use is of concern to me. One of my 
writers terms it fairly useful way to steal my money. And that 
is his version of fair use. So I think that I would encourage 
you all to have a revisit on that.
    I have about seven questions. I am not going to get through 
all of them. So, Commissioner McDowell, you had mentioned 
something I want to go back to. The notion of net neutrality, 
having net neutrality and those net neutrality rules could 
complicate the efforts to enforce the laws on illegal content, 
illegal downloading online. I would like for you to just expand 
a little bit about that relationship between net neutrality 
rules and enforcement against illegal content.
    Mr. McDowell. Sure. First of all, the proposed rules do 
call for a carveout for enforcement of such things as illegal 
content, not just intellectual property theft but child 
pornography or things involving national security, et cetera.
    But I think my concern with adopting those rules in general 
is the amount of uncertainty that it will inject. We have 
talked about today extensively Title One versus Title Two. I 
will be filing a letter with the committee regarding my 
position on that, but that is being litigated before the 
courts. And these things do take years.
    In the meantime, would new rules actually give network 
operators pause in terms of acting on a number of fronts 
including the enforcement of intellectual property where it 
might not be so clear, especially if we are talking about 
relaxing or undermining fair--expanding fair use, undermining 
of the existing protections? So I think it creates some 
certainty.
    You know after the '96 Act, we have the legislation and 
then regulation and then litigation cycle that went on for 
better part of a decade. I would think that after we try to 
promulgate some rules, we would have at least half a decade of 
such uncertainty, and that is probably not good for 
intellectual property rights holders.
    Mrs. Blackburn. OK, Mr. Chairman, let us go back to 
Commissioner Baker's comment where, you know, talking about the 
media companies and the push to get that content on their 
because of the way people are doing research. So if you want to 
ensure both a robust broadband deployment and a protection of 
the intellectual property and that content from those copyright 
industries that are going to be essential and are going to 
contribute to that growth, then how are you going to go about 
that?
    I think we have to realize that our core copyright 
industries contributed nearly a quarter of the real growth we 
had in our economy last year. And you are talking about, you 
know, ease of access here. So how are you going to marry those 
two? We are all interested in it. We have a lot of innovators 
who have invested a lot of money in new platforms. So how do 
you make that guarantee?
    Mr. Genachowski. Well, one is I couldn't be more firm in my 
conviction that it is essential to be able to protect 
intellectual property on the Internet. I have been clear about 
this since the first day I was sworn in as Chairman. I 
understand that one, it will be video under Commissioner Baker 
and other content that will be an important part of driving 
broadband everywhere, and one of the main ways that a strong 
broadband policy will create job creation and innovation in the 
country.
    So I think in general I am in complete agreement with you 
on this. I think we have to be sensitive as a Commission to 
suggestions that we have from teachers or others saying can you 
look at narrow issues to see what makes sense. We wouldn't do 
anything in this area without a robust, open, participatory 
proceeding that heard views from everyone involved. And I think 
that is our job. But I should stop there, but I don't----
    Mrs. Blackburn. Well, we are out of time, so that will be 
fine. And thank you again so much to all of you for your 
preparation and being here. And, Mr. Chairman, I will submit 
the balance of my questions, and we are appreciative for your 
efforts today. Thank you.
    Mr. Boucher. Thank you very much, Ms. Blackburn. The 
gentleman from Michigan, Mr. Stupak, is recognized for five 
minutes.
    Mr. Stupak. Thank you, Mr. Chairman. Chairman Genachowski, 
Mr. Waxman spent a little bit of time on public safety. I have 
a couple questions I would like to follow up on. The National 
Broadband Plan proposes roaming and priority access to public 
safety organizations for all license holders in the 700-
megahertz realm. What type of obligations would be placed on 
commercial providers to ensure that public safety is given more 
than just priority access but also a robust and resilient 
access at times of emergency?
    Mr. Genachowski. Well, the details of that are exactly the 
kind of thing that would be worked out of the rule making that 
we will hold. But that is the--what you describe is the goal. 
To put in place a mechanism where public safety can have 
prioritized access to spectrum that it needs. The team that has 
worked so hard on this and has consulted with everyone involved 
believes that there is a path that can work for public safety 
and deliver on the 9/11 Commission recommendations and that is 
also reasonable for wireless industry, and it takes advantage 
of this unique moment in time. If we do this as the commercial 
networks are being built out, we can get it done, do it 
efficiently, and deliver on the 9/11 Commission 
recommendations.
    Mr. Stupak. Well, in order for it to work though, you are 
going to have to have a ready and willing commercial partner to 
work with for law enforcement. And are you confident we are 
going to have it in all parts of America, especially our rural 
areas? If they don't, how would public safety proceed to have 
this plan?
    Mr. Genachowski. I asked this question of our team because 
I wanted to make sure that the plan that was being proposed met 
these goals. They are confident that this mechanism will work 
for public safety and that commercial providers will provide 
the access that is described in the plan.
    Mr. Stupak. Even in areas that are not developed now?
    Mr. Genachowski. I believe that is the case. It is 
certainly something we would be happy to follow up with you. 
Sorry, the areas that are not developed now, the idea is that 
as we push forward on forging mobile broadband network 
everywhere, it would be developed and that actually it would 
accelerate buildout of 45G networks in rural areas because we 
can do the commercial networks and the public safety networks 
together.
    I fear that if we don't do that, in some areas, we won't 
get any 4G networks, and some areas we might get commercial and 
no public safety at all because, as Commissioner McDowell 
mentioned, there is public safety spectrum that is there. It is 
not being built, and the goal here is to get it built.
    Mr. Stupak. You mentioned 4G, but then you add in the 
mobility fund, you provide for support for 3G wireless network. 
So I guess that seems like--how are you going to get the 4G 
then to help our law enforcement in those areas when the 
minimum is going to be a 3G in that Connect America Fund, I 
think it is, in your proposal. And plus you are only going to 
support one carrier with subsidies in a given geographic area, 
right, underneath this Connect America Fund?
    So how will you determine which broadband provider in a 
given area would receive support if they are only supposed to 
be 3G, but yet you are talking about public safety needs 4G? 
How do we bridge that?
    Mr. Genachowski. Well, the 3G networks would be the 
foundation for the 4G networks, so I do think this is part of 
the solution to make it happen. With respect to the other 
issues, I think you are raising issues that, of course, we'll 
take up in the course of developing the rule making. In the 
meantime, we would be happy to follow up with you on more 
information that went into the development of this plan.
    Mr. Stupak. Well, let me ask you one more since we are 
going to look to the future development. In the intercarrier 
compensation scheme that is going to be sort of Universal 
Service Fund phased out, what, over 10 years? Is that what it 
is?
    Mr. Genachowski. Yes.
    Mr. Stupak. OK, and how does the FCC plan to ensure that 
the necessary support for rural telecommunications remain in 
places considering how essential the implicit support is to 
many of these rural companies?
    Mr. Genachowski. Well, we believe that the plan proposed a 
transformation over 10 years.
    Mr. Stupak. OK.
    Mr. Genachowski. We will have that result. As I said to one 
of your earlier questions, the team has also suggested an 
alternative to accelerate the transition. There is a 
possibility of identifying additional funding. That is a choice 
that we would be happy to work with the committee on. But the 
goal of the plan would be to deliver exactly what you are 
seeking for rural America.
    Mr. Stupak. I appreciate the goals and the thought and 
analysis that went into this. It is just that whenever we do, 
whether it is the Telecommunications Act of '96 or anything, it 
is always rural areas, we will get to you. We are still 
waiting, and law enforcement, it is even greater. You say you 
need 4G. We can't even get the basic cable up in some of those 
areas or DSL. So I am a little concerned about that.
    Commissioner Copps, I have four seconds left. The bill we 
entered as the FCC Corroboration Act, give me just a quick 
comment on why we need it and hopefully we can convince the 
chairman, even though he has indicated we might get a hearing 
on it here soon, why we need this.
    Mr. Copps. Well, I want to commend you again on introducing 
the legislation to make this possible. I just think it would be 
a great step forward from the standpoint of dispatching the 
business of the Commission. You know we were all standing 
around in the room out front waiting for the hearing to start 
here, and it was an opportunity we could have talked about some 
stuff on broadband and maybe resolved a problem or two. I don't 
know. But we all had to get lockjaw at that point because we 
would be delving into the world of substance.
    So I think from the standpoint of doing business, you have 
five people here who come from five very different backgrounds 
with hopefully different talents to contribute to the cause, 
different perspectives. You can really benefit from those folks 
sitting around and talking about these issues. It serves the 
public interest. You do it with counsel present. You build in 
protections, but the system we have right now disserves the 
public interest and retards the ability of the Commission to 
discharge its obligations in a timely and public-interest-
friendly fashion. And if there was one reform that I could make 
at the FCC, the one you proposed would be it.
    Mr. Stupak. Thank you very much.
    Ms. Clyburn wants to comment on it.
    Ms. Clyburn. Mr. Chairman, if you would allow. One example 
to augment that. I had the opportunity to chair the joint board 
for USF where all of the joint boards. Thank you very much, Mr. 
Chairman. And one of the things--and my colleagues are members. 
I distinctly remember on our inaugural call, which we had a lot 
of new voices because it was virtual. A lot of voices on the 
line and Commissioner Copps was in the middle of a very 
significant point, and it was 17 minutes after the hour when 
Commissioner Baker--and she was quite on time--came into the 
room. And Commissioner Copps had to get offline. So what 
happens is we lost that exchange, and just lost that train of 
thought. And it is a very cumbersome process. So I thank you 
for recognizing that even on that level where notes would be 
taken that this country and the joint board would be better 
served in having a process that is more relaxed.
    Mr. Boucher. Thank you very much----
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Boucher [continuing]. Ms. Clyburn and Mr. Stupak. And 
let me assure you there will be a hearing on your measure in 
the not-too-distant future. The gentleman from Alabama, Mr. 
Griffith, is recognized for five minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate the 
opportunity. When you mention staff, is it your staff that is 
going to make the recommendation so that we remain competitive 
and enhance the creativity of our Internet?
    Mr. Genachowski. I think it is the FCC staff.
    Mr. Griffith. Well, it is the FCC staff. Is there a group 
that is specifically in tune with what has happened in the 
marketplace in the last 10 years and has a relationship with 
that marketplace?
    Mr. Genachowski. That is a great question. That is the job 
of the staff of the agency to be proactive, to stay on top of 
market developments and to make sure that we have the skill 
sets necessary to do our job.
    Mr. Griffith. Right, and so those individuals have had 
experience in the marketplace and understand the reality of the 
capitalistic system and the development and the risk capital 
and that sort of thing? Is that a fair----
    Mr. Genachowski. I come from 10 years in the private sector 
and taking this job, and I have focused on bringing in to the 
staff a broad collection of people with backgrounds in 
operating businesses and investment firms as well as people who 
have other relevant experiences. I think that is how we do our 
job best, to put a room together of people with different 
backgrounds and disciplines and have them focused on doing the 
right thing for the country. But certainly making sure that 
people have a very real understanding of technology, the 
marketplace, what drives business decisions is essential to me.
    Mr. Griffith. Would it be five or six staff members that 
will be assigned to the development of the language and how it 
might affect private investment?
    Mr. Genachowski. I think the implementation of the plan 
will be worked on by many more staff members than that.
    Mr. Griffith. Well, where I am going is I would love for 
you to identify those for me, and I would love to sit and see 
their resumes and also talk with them if that would be fair 
because it is of great interest to me, having been in the 
communication field once before.
    And in the interest of the health care bill that we just 
went through, I have read that bill, and there is no provision 
in the health care bill for broadband envy. So we have to--that 
is a joke. We hope that you guys can solve that problem for us 
here. And thank you very much for being here. We appreciate it.
    Mr. Boucher. Thank you, Mr. Griffith. The gentlelady from 
California, Ms. Matsui, is recognized for five minutes.
    Ms. Matsui. Thank you very much, Mr. Chairman. You know in 
many districts even like mine in Sacramento, there are far too 
many households who cannot afford broadband services. In a 
recent survey conducted by the FCC found that 93 million 
Americans do not subscribe to in-home broadband services in 
large part because of affordability barriers.
    The fact is the high cost of broadband leaves far too many 
lower income families in urban and rural areas at a severe 
disadvantage in our economy. Last September, I introduced a 
broadband affordability act to expand the USF Lifeline 
Assistance Program for universal broadband adoption. This bill 
will ensure that all Americans, whether they live in urban, 
suburban, or rural areas all have access to affordable 
broadband services.
    Chairman Genachowski, I applaud you actually and the 
Commissioners for including this proposal as a central element 
of your plan. How important is it, in your view, is it for our 
economy and for the matter of our country to fully close the 
digital divide?
    Mr. Genachowski. I think it is essential, and I appreciate 
your leadership on this, and it is included in the plan. Ten 
years ago if you were looking for a job, you would get a 
newspaper. You would look at the classified, and that is how 
you would look for a job. Today job posting have moved online. 
Most jobs require online applications. If you don't have 
Internet access, you are disadvantaged in looking for a job. 
More and more jobs require basic digital skills and digital 
literacy, and so it is very important that we move forward on 
this.
    It is one of our biggest gaps too globally where other 
countries are ahead of us on adoption rates. So it is a very 
important challenge. There is no silver bullet, and the plan 
recommends a number of different strategies to tackle adoption 
issues.
    Ms. Matsui. Now, if this program, my linkup program for 
universal broadband service were implemented, in your view, how 
much do you estimate it would increase the broadband adoption 
rates in urban and rural areas?
    Mr. Genachowski. Well, we have set a goal in the plan of 
moving from 65 percent to 90 percent adoption over the next 10 
years, which would be a third as fast, two-thirds as fast as 
the adoption rate for telephone. With respect to lifeline 
linkup, we want to move forward as quickly as we can with smart 
pilot projects so we can identify what works, what really moves 
the needle on adoption, and then focus our energies on those.
    Ms. Matsui. And that would be both in urban and rural 
areas?
    Mr. Genachowski. Yes.
    Ms. Matsui. OK, that's great.
    Mr. Genachowski. Yes.
    Ms. Matsui. I had in my opening remarks broadband is going 
to play a major role in the sustainable path to clean energy 
economy, improving energy efficiency standards, and lessening 
our dependence on foreign oil.
    As I mentioned before, I will soon be introducing 
legislation that will complement many of the recommendations 
made in your plan to modernize our Nation's smart grid. In 
doing so, it will make our smart grid more reliable and 
efficient and assure resilience to natural disasters and 
empower consumers to make more energy efficient and economic 
decisions about their energy usage.
    Chairman Genachowski, how important do you believe that 
broadband is to modernize our Nation's smart grid?
    Mr. Genachowski. I think it is essential. I think Congress 
was wise in instructing us to prepare a broadband plan, to ask 
us to look at the relationship between broadband and energy, 
health care, education. There is a section in the plan, as you 
know, but it is going to be critical to integrate broadband 
with our smart grid both critical and efficient and ultimately 
would result in very significant savings and benefits for the 
country.
    Ms. Matsui. Well, can you expand on the point made in the 
plan about the importance of ensuring that consumers have 
greater access to information about their electricity usage, 
and why is it so important? What are the barriers in order to 
provide them that access?
    Mr. Genachowski. There is terrific innovation going on in 
this base with products that help consumers visualize their 
energy use and a lot of evidence that that translates directly 
into energy savings. Many of those technologies rely on 
broadband connectivity and often wireless connectivity to fully 
see and fully visualize. So homes that don't have access to 
broadband or haven't adopted broadband are not able to get the 
benefits of those kinds of technologies. And so in a number of 
different areas here, the nature of broadband is a general 
purpose technology that can fuel so much innovation, 
investment, and benefit producing activity applies very much to 
energy. And this is a good example.
    Ms. Matsui. Well, in Sacramento, the utility district 
receive $129 million grant for smart grid, and in talking, we 
felt it was really important to look at that and look at 
broadband and how the connection of this is so important when 
you think about the community and what we need to do and to see 
the relationships.
    That is really very important too because for some reason I 
think when you think about things like smart meters and being 
able to find out what's being used in your house, people seem 
to understand that this is somehow connected to broadband. So I 
think it is important, and I am very grateful that you have a 
new plan. Thank you.
    Mr. Genachowski. Thank you.
    Mr. Boucher. Thank you very much, Ms. Matsui. The gentleman 
from Michigan, Mr. Rogers, is recognized for five minutes.
    Mr. Rogers. Thank you very much, Mr. Chairman. Thanks 
again, Commissioners. Mr. Genachowski, I am very impressed with 
and I like a lot what you are saying. But when I went back and 
took a look at your statement on September 17 at the hearing, 
nowhere in this statement does it talk about net neutrality, 
not once. Great statement. Get tears in your eyes reading this 
thing. I want to stand up and salute the flag.
    And then four days later, you introduce a rule, a pretty 
sweeping rule on net neutrality. Today I heard you tell this 
panel that I am for a light touch on regulation. That is what 
has generated all of this competition, and yet your FCC was 
doing oral arguments arguing where you have the ability to 
regulate the Internet. And maybe you can help me understand how 
we get from that position to net neutrality and your position 
of today that you are telling me now, which I like to hear, 
light touch on regulation. You can argue the case that you have 
the ability to do that even though it appears to me by reading 
the case that the three-judge panel was pretty tough on your 
position. Could you help me understand that, sir?
    Mr. Genachowski. Sure, I think, you know, I have been very 
public for quite a long time on my very strong view that clear, 
high-level rules to preserve a free and open Internet are pro-
investment rules, pro-competition, pro-innovation that we have 
an obligation to make sure that the open architecture of the 
Internet that has served the country so well continues going 
forward. So I see real consistency between my priorities of 
innovations and investment and preserving a free and open 
Internet.
    Mr. Rogers. The very things that you reference actually in 
your speech to the Brookings Institute where you talked about, 
you know, Chevrolet and hot dogs and apple pie. Great stuff, 
but you--there are some of the things that you reference, 
Netscape, started in Ann Arbor, Michigan. We are very proud of 
that. The Facebook, those other innovations didn't happen 
because of this social justice notion we are going to have this 
exchange of information. We are going to be in the back yard 
and have Kum By Ya and play drums. And somebody was going to 
make some money, right?
    Mr. Genachowski. Absolutely.
    Mr. Rogers. And so what you are saying is I believe in the 
light touch. I believe in a free and open Internet. That is why 
we are going to regulate the Internet. There is no such thing 
as being a little bit pregnant. When you start getting into 
regulation of the Internet, you are going to make 
determinations. You have to make determinations.
    And you are arguing the fact that you absolutely have the 
ability to do it. I agree with the three-judge panel. I don't 
think you do. I would love to know--obviously we are going to 
disagree. You think it is consistent that you can do that. I 
don't think you are. You need to help me understand where does 
it say, in what section of the law, in what you are arguing 
that gives the FCC the ability to regulate the Internet.
    Mr. Genachowski. Well, we are not in favor--I am not in 
favor of regulating the Internet.
    Mr. Rogers. But you are in favor of net neutrality which is 
regulating the Internet.
    Mr. Genachowski. I completely disagree with that, sir. It 
is about--in fact, some companies have come to us to suggest 
that we regulate the Internet, and we have resisted it. The FCC 
has, for many decades, had rules that apply to the onramps for 
the Internet to promote competition to make sure that those are 
free and open and fair. And I do think that we should continue 
that in the Internet world so that the next Facebooks, the next 
eBay, the next Netscapes have the ability to innovate, to 
invent, and as you say, I completely agree, get a return on 
their investment by having a fair chance to reach a market.
    Mr. Rogers. And I agree with you, but when the federal 
government, FCC, gets into the business of setting up what 
those rules are that don't exist today, you have regulated the 
Internet. I don't know how you cross that barrier and think 
that there's no harm, no foul. There clearly is, and I will 
tell you what will happen. There is a member who--a complete 
free market. I believe in the market. I think it works.
    Now we are going to create these big programs to give 
broadband to people because maybe you have all gotten in and 
regulated the Internet where there isn't a clear market 
solution, but there might be in your terms, at least Mr. Copps' 
view, I think, a social justice issue for having that broadband 
at the house.
    Now you have completely dismantled the very model that got 
us to 200 million folks having access to broadband, and how you 
don't intertwine that is beyond me. And I guess my concern is 
exactly that. You say here light touch. Four days later, you 
unleash a pretty aggressive, first-time-ever I would argue 
regulation of the Internet.
    Today you said light touch. What is next? I mean obviously 
this is something you are wedded to and you are clearly 
committed to this. And I think Mr. McDowell pointed out this 
section. I apologize. I don't--it was section 17? Is that 
right, sir? Did I get that right? I mean so you have clearly 
laid out the platform to do this. And is it your position that 
you are going to continue to pursue at least in court that you 
have the right to regulate the Internet?
    Mr. Genachowski. If I may, sir, when I started at the FCC, 
the prior administration had adopted first a set of principles 
regarding the free and open Internet, then enforced those 
principles against a company. It was the prior administration 
that did it. That is why we are now in court. It took those 
principles and attached them as conditions to a merger, so I 
inherited a landscape around this area where there were open 
Internet rules in effect, but they were confusing to people, 
diminishing predictability and certainty.
    I think it is important to adopt clear, high-level rules of 
the road that encourage innovation, competition, and that make 
clear what is not permitted. And almost anyone involved in this 
will tell you there are some things you shouldn't be able to 
do. Make clear what is permitted, and then have a fair process 
for disputes to be resolved.
    And I would be happy to work with you on that. I think 
there is a way to do this completely consistent with investment 
growth.
    Mr. Boucher. Thank you very much, Mr. Rogers. Your time has 
expired.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Boucher. The gentleman from California, Mr. McNerney, 
is recognized for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. You know I have 
really enjoyed this hearing so far. Mr. Chairman, I have a 
question concerning access. Do you believe that pursuing a 
purely engineering approach to meeting data flow challenges 
would make net neutrality an obsolete issue?
    Mr. Genachowski. I would be--one of the suggestions that I 
made in the rule making that we propose was to increase 
transparency, to increase the information about the engineering 
network management rules that will be available to 
entrepreneurs and CTOs. I think it would have the positive 
effect of minimizing disputes, minimizing the government role. 
And so if that is what you are referring to, it is something 
that I would like to pursue.
    Mr. McNerney. Well, what I am getting at is that a purely 
engineering approach would basically expand the capability of 
the existing spectrum, and that may be enough to override 
whatever net neutrality issues are. Commissioner McDowell, do 
you have--your head is shaking there.
    Mr. McDowell. I think you are on the right track 
absolutely. I think what can actually obviate the need for--
first of all, there is no need. The Internet is not broken in 
this regard, but what we really--the ultimate antidote to 
potential anticompetitive behavior is more competition, 
especially in the last mile. The most robust area for that 
competition recently has been wireless.
    The Commission has worked hard for years since the 
chairmanship of Michael Powell, for instance, on getting 
unlicensed use of the white spaces out to market. This is 
something that in November of '08 with great fanfare we 
announced a groundbreaking order of 5-0 bipartisan unanimous 
vote. It was absolutely a wonderful moment, but we have bogged 
down in our progress there.
    Something like the use of unlicensed use of the white 
spaces could actually absolutely obviate the need for any 
rules. I dispute that there is a need right now. The record 
doesn't have any evidence that there is. But you are absolutely 
right. So also with new technologies, cognitive radio, software 
defining radio, new smart antenna technologies. All these can 
allow us from a wireless perspective to have more competition 
the last mile wirelessly so you get multiple providers and 
consumers have a wonderful robust marketplace to choose from.
    Mr. McNerney. Thank you. I have another question for you, 
Commissioner McDowell. Do you feel that the plan will succeed 
in meeting the six goals that are identified? Do you think the 
plan as written and published?
    Mr. McDowell. It remains to be seen. First of all, it is 
obviously a very ambitious plan. It is very lengthy. There are 
several hundred recommendations, some of which are for the FCC 
to do, some of which are for other agencies to do, some of 
which are for Congress to do. So all those moving parts, I 
think it is going to be very difficult to say all of them are 
going to realize the hope of their recommendations. But we can 
always be optimistic.
    Mr. McNerney. One more question for you if you don't mind. 
While I certainly appreciate the risk of additional regulation, 
and, as I mentioned in my opening statement, creating jobs is 
very important to me, considering the situation in my district 
and in the country. And I wish to work with the Commission on 
that issue as we move forward.
    Do you think there is any risk of abuse without further 
regulation, without additional regulation? Is that something 
you see as a potential problem?
    Mr. McDowell. Well, I think in the context, for instance, 
of our net neutrality proceeding, the Department of Justice, 
the anti-trust division found comments in early January, which 
is very rare for the anti-trust division to do that. It 
examined the marketplace and not only said was it not broken, 
in other words, there was not concentration and abuse of market 
power, there was actually downright optimistic that there is a 
competitive marketplace for broadband and that more competition 
is coming, especially because of wireless.
    The Federal Trade Commission also examined this in 2007. 
Issued a 5-0 bipartisan unanimous report that said that we need 
to be very careful. This is a competitive marketplace, and 
while new rules might have the best of intentions, they could 
create regulatory uncertainty. So I think there is great risk 
there.
    Mr. McNerney. Any other Commissioners care to take a stab 
at that?
    Ms. Clyburn. As it relates to competition, sir, I am 
concerned about the future. In chapter four of the plan, it 
talks about what 2012 looks like, and it talks about cable 
rolling out its DOXIS 3.0 product which will provide 
incredible--the goal, incredible potential high speed. What it 
also points out is that in the market that we are speaking, 
that competition may only exist in up to 15 percent of the 
market.
    So if we talk about, you know, prices and service quality 
and the like, I am a bit concerned because I don't see robust 
competition in that particular segment in terms of high speed 
deployment being available in the next couple of years.
    Mr. McNerney. OK, thank you.
    Ms. Baker. I appreciate and understand the concern. My 
concern is that we proactively produce regulations when we are 
talking about a marketplace in the future. I think that right 
now the market is competitive, and any significant change in 
the regulatory environment will cause investment to dwindle, 
and that will cause jobs to dwindle. And I think we need to be 
very careful when we tread in this area.
    Mr. McNerney. OK, thank you. My time is up.
    Mr. Boucher. Thank you very much, Mr. McNerney. The 
gentleman from Missouri, Mr. Blunt, is recognized for five 
minutes.
    Mr. Blunt. Thank you, Chairman, for the time. Let me ask-
see what questions I can ask and which questions we will submit 
later. The first question would be in 2007, the FCC determined 
that a wireless service is not required to provide another 
wireless carrier with roaming services if the second carrier 
holds a wireless license of spectrum usage in the same 
geographic location.
    Is there anything in this plan that changes that? And, Mr. 
Copps, you were there in '07. If you want to answer that.
    Mr. Copps. I think what we are trying to do is trying to 
revisit that a little bit on the premise that roaming is 
essential, I think, to competitive environment and looking at 
the end-market exception that was put in place at that time 
when several of the carriers were telling us this is, you know, 
inhibit the small one, inhibiting their ability to be able to 
connect and do business as they would like.
    So I think the Commission was well advised, and the 
chairman can speak better to this, what is looking at, trying 
to take another look at that and see what, if any, changes need 
to be made at this point.
    Mr. Blunt. So, Chairman, your sense is there would be some 
potential there, that this will reverse some of that 2007 
structure?
    Mr. Genachowski. I wouldn't say that mostly because that 
process, that proceeding hasn't happened yet. If I remember 
correctly, the plan does identify roaming as an issue whose 
resolution could affect the speed of deployment and 
acceleration and competition in the mobile broadband market and 
suggested it is something that the Commission needs to look at.
    Mr. Blunt. Now the previous view was if you had a license 
to serve the area already, you were required to provide your 
own service. Mr. McDowell, do you have a view on that?
    Mr. McDowell. I think as a policy matter what we need to 
encourage is buildout of your home region. So I think what you 
are referring to is there was a concern in '07--I was there 
too--that we wanted to make sure roaming wasn't just a 
substitute for resale.
    If you had a license and weren't building out in your own 
region, we wanted to provide a disincentive for that and an 
incentive for you to build out your own network so that you can 
become self-sufficient, so that the spectrum could be used more 
efficiently and consumers could be better served. So I think 
that has got to be a fundamental policy objective for us is to 
encourage buildout in home region and therefore everywhere.
    Mr. Blunt. OK, thank you. Let us go to broadcast TV for a 
minute. This committee in this Congress passed a bill out where 
the FCC would create an inventory of all the spectrum out 
there, how it is currently being used. That has never been 
voted on by either the House or the Senate, and I think this 
report calls for the need to find another 500 megahertz of 
spectrum.
    Do you think it would be helpful to analyze how the 
spectrum is currently being used? And would you encourage use 
to move forward and ask the FCC to find out how the spectrum is 
currently being used before you just go out and try to find 500 
megahertz of spectrum? Anybody can answer.
    Mr. Genachowski. Sure, I would be happy to tackle that. The 
spectrum inventory bill is very important, and it reflects the 
recognition of the importance of spectrum in mobile to our 
economic landscape. Much is known already. The demands on our 
mobile network, the constraints that we are heading into are 
very clear based on the record.
    And of course the FCC has information about where licensees 
are. The wireless industry in the course of our proceeding on 
broadband came and suggested that we need 800 megahertz of 
spectrum to satisfy forthcoming mobile needs. The staff at the 
FCC did work and felt the 500 megahertz was a reasonable goal. 
There has been record development with respect to broadcast 
spectrum and record development with respect to the win/win 
idea that is in the plan.
    Of course, there is a lot more work to do, and we look 
forward to working with the committee to find a sensible way to 
unleash spectrum for economic activity to make sure the 
broadcasters are treated fairly, that viewers are served, and 
that there is a possibility to generate billions of dollars of 
revenue through auctions that we do----
    Mr. Blunt. OK, well I thought that this committee was right 
when we encouraged that you be funded, allowed, directed to 
make that review, and I hope we do that. But if we don't do 
that, what is the impact of over-the-air broadcasting on any 
spectrum reallocation? I know we have some areas all over the 
state that aren't served by the same over-the-air broadcast 
they were before the digital conversion.
    How much worse does that get as we begin to reallocate 
spectrum, and, you know, we have lots of areas in America that 
are still either you pay for the satellite or you have over-
the-air broadcasting or you don't have television.
    Mr. Genachowski. The goal of the proceeding would be to 
respect the needs of viewers, especially those who still get 
their TV signal over the air. The congestion issues that we are 
concerned about are chiefly large market issues, and we can 
make substantial progress for the country if, in a small number 
of large markets, a small number of broadcasters share 
spectrum. We can free up very significant amounts of spectrum 
for our mobile broadband economy, generating auction revenues.
    So I am confident that there is a win/win here. I think the 
issues will be much less in rural areas because the congestion 
issues on the mobile broadband side are less intense.
    Mr. Blunt. Well, it could be though a lot of the unserved 
people that were served before the other conversion are the 
people closest to the station, closest to the tower, if you are 
on that higher number on the band. But I have some other 
questions on the unserved and underserved and other things, and 
we will submit those for your answers in writing. Again thank 
all of you for being here today. Mr. Chairman, thank you for 
your time.
    Mr. Boucher. Thank you very much, Mr. Blunt. The gentlelady 
from the Virgin Islands, Ms. Christensen, is recognized for 
five minutes.
    Mrs. Christensen. Thank you, Mr. Chairman, and again 
welcome. My first question is hopefully just for the record, 
Mr. Chairman. States means states and territories wherever we 
see that in the plan?
    Mr. Genachowski. Yes.
    Mrs. Christensen. Good, OK. Thank you. Before coming to 
Energy and Commerce, I was on Homeland Security. So the issue 
of interoperability was and remains a big challenge and one I 
am very concerned about.
    I have heard some concerns that the 10 megahertz of 
broadband might be inadequate for public safety needs either 
now or in the future. Listening to your prior comments, it 
seems that you were pretty satisfied that you were meeting the 
needs of public safety in this regard. So do you have concerns 
that there is not enough, or do you plan to expand the spectrum 
later on?
    Mr. Genachowski. As I mentioned to Chairman Waxman, my 
charge to the team at the FCC, which is led by a wonderful 30-
year admiral, was to take a fresh look at public safety mobile 
communications needs and recommend an overall plan that would 
most quickly and effective deliver on the 9/11 Commission 
recommendations.
    As Commissioner McDowell mentioned, there is 24 megahertz 
that has already been allocated. It is not being used because 
there is no strategy to build the network. And so this program, 
which includes several elements, is a plan to get the network 
built, to act consistent with the authority we have now to 
auction the 10 megahertz, referring to the D block.
    I do have tremendous faith in our team and in the 
commitment to delivering on the 9/11 Commission 
recommendations.
    Mrs. Christensen. Thank you. Everyone feel the same way? 
OK. Commissioner Clyburn, when you came before us in the 
initial hearing with the Commission, you talked a lot about the 
concern about preserving diversity and local programming as 
well as closing the gaps for women and minorities. Do you feel 
that the plan provides enough capacity potential to meet those 
concerns?
    Ms. Clyburn. It provides some promise, but I remain 
concerned on some fronts. The concern for me is when we talk 
about, and I am not--I am for a voluntary spectrum 
reallocation. But what the potential of that is that some of 
these entities who may be financially strapped may be the first 
to sell their space, which would possibly further dilute the 
gains in the quest for diversity with the voices.
    But the frontier, when I look at the overall plan, I am 
hopeful because it provides a whole host of opportunities that 
some are named and some are not, you know, low-power 
television, entertainment in other types of sourcing or 
programming over the Internet. There are growing enterprises 
and arches who exclusively want to stay in that space because 
of the flexibility and the potential for keeping more of their 
dollars.
    So while I am concerned on the other front, I am hopeful 
that this space will be one that literally the sky is the limit 
in terms of potential for diverse voices.
    Mrs. Christensen. And so would it be the role of the FCC to 
do the outreach to make sure that these smaller entities know 
what is available, or is it our role or CPC's role or----
    Ms. Clyburn. I think it is very much a global effort. When 
I go out and speak, I say just that, the more positive aspect. 
A young lady came up to me and said, you know, I am in my 
senior year of college. You know what do I do? You know I want 
to get into broadcasting, and I am a proponent of in the 
meantime. In the meantime, you have a vehicle, a relatively 
affordable vehicle through the Internet to promote yourself, to 
produce yourself, and so I look at this as both of an 
opportunity and a bridge to whatever comes next.
    Mrs. Christensen. Thank you. Let me just ask this question. 
I know that preserving and stimulating competition is a major 
part of the plan, but are there any new mandates imposed on 
industry--and anybody can answer this--in the broadband plan? 
And if so, what industries might have mandates that might 
require additional investment?
    Mr. Genachowski. Well, the plan itself is not self-
executing. There are a number of ideas in the plan to promote 
competition. I spoke earlier about the complaints that we have 
heard at the Commission from small businesses who want to move 
on to broadband but are dissatisfied with the choice that they 
have and their prices. And we hear from other competitors who 
have raised issues. And the plan identifies a number of issues 
that require further work.
    Mrs. Christensen. Thank you. My time is up, Mr. Chairman. I 
yield back whatever is left.
    Mr. Boucher. Thank you very much, Ms. Christensen. The 
gentleman from Nebraska, Mr. Terry, is recognized for five 
minutes.
    Mr. Terry. Thank you, Mr. Chairman. It has been asked 
before, but I haven't asked it, as the old saying goes. But I 
am going to ask it in a little bit different way regarding the 
over-the-air TV spectrum. The plan suggests the option of being 
able to give back or sell back--I am not sure--that part of the 
spectrum. The second half of that is does--if there are not 
enough station holders willing to give back some of their 
spectrum, we have heard that you won't just force it. But does 
the FCC even have authority to force them to give back or the 
authority to take back some of that spectrum?
    Mr. Genachowski. With respect to authority, the authority 
that we don't have is to structure what we call the incentive 
auction where with respect to any band, we have the ability to 
ensure that any spectrum that is used that way, that some of 
the auction proceeds benefit the license holders.
    On the first question, again I would emphasize that both 
that there is a real issue ahead of us for the country and our 
ability to lead the world in mobile. We have all the 
ingredients lining up with the incredible innovation that we 
are seeing, with the fact that we are moving quickly to 4G to 
lead the world. And we would be happy to share with you the 
data that shows the gap that we are going to face between 
capacity----
    Mr. Terry. I am well aware. I am just wondering if you have 
that authority or whether Congress would have to give you that 
authority to grab back that spectrum if they don't voluntarily 
offer it to you.
    Mr. Genachowski. My understanding is that the authority 
that we lack is the incentive auction.
    Mr. Terry. So you think if it just we are going to take 
that back, you have the authority to do that without 
congressional----
    Mr. Genachowski. I think in general with respect to 
licensees----
    Mr. Terry. OK.
    Mr. Genachowski [continuing]. They are licensees of 
spectrum.
    Mr. Terry. OK, which is also a follow-up question about 
giving it back, whether you could buy it back. They are leasing 
it. I don't know if they would have the power to resell that 
anyway without the FCC allowing that or Congress.
    Just overall, I like the plan in part, and, of course, we 
are always going to disagree with some of the details out here. 
But one of them, I view this plan as mostly an infrastructure, 
but a lot of the opening statements was on tape rate. And I 
think that is an interesting discussion of access versus 
acceptance. And so I want to talk about what part of the plan 
do you think is important on the tape rate, which then 
dovetails into the buzzword affordable. And I think that is a 
term of art not necessarily science. And so are there mandates 
in here on pricing, or how would you make this ``affordable'' 
so more people take it once we get the infrastructure and 
access out there? And I will open that up to any of them. 
Chairman, you have a good job of burdening and shouldering most 
of the answers and questions.
    Mr. Copps. I will get us going quickly.
    Mr. Terry. We can go to Michael. He needs to be involved 
more.
    Mr. Copps. Well, I think, number one, inferring that there 
is a competitive environment out there that helps drive down 
consumer costs is one way you get this stuff out and make it 
affordable. I think digital literacy is important so people 
understand the importance of this to their individual lives and 
to the future of the Nation.
    Going back for just a second to that previous question you 
asked about, you know, licenses all expire. So, you know, we 
are not necessarily talking about going in and grabbing. I have 
always been a believer in kind of use-it-or-lose-it, and if you 
are in the broadcast spectrum, that involves serving the public 
interest. So my advice to the broadcast industry, while we are 
cogitating all of this and doing inventories and all of that is 
to make sure that that spectrum is being used.
    Mr. Terry. Mr. Copps, I hate to be rude to you, but I only 
have 23 seconds left, and I want to follow up on the 
affordability and how we are going to do that. And I thought 
the E-rate was the answer to that question. So in this 
discussion of affordability and take within urban cores and 
rural areas, has E-rate not been successful?
    Mr. Copps. E-rate has been a stunningly successful program, 
I do believe, and I think it is--you are talking about digital 
literacy and all of that. And certainly E-rate is connected to 
that, but just from the standpoint of connecting kids to the 
21st century, it has been an outstanding success.
    Mr. Boucher. Thank you very much, Mr. Terry. The gentleman 
from Illinois, Mr. Rush, is recognized for five minutes.
    Mr. Rush. I want to thank you, Mr. Chairman. This has been 
an excellent hearing. Chairman Genachowski and the other 
Commissioners, you may be aware of the joint efforts by this 
subcommittee and the subcommittee that I chair to draft a 
federal privacy legislation. In recent days, much has been made 
about the plan's proposal to commission future spectrum options 
for broadband service around advertising business models.
    If the FCC imposes conditions on spectrum and the 700 
megahertz auctions require free broadband access for people who 
can't afford it, then one probable way to finance the purchase 
price would be through advertising-based services. The plan 
offers this as a proposed recommendation. However if I am 
veteran to auction and I know when to follow rules of the road 
with respect to protecting consumer privacy, then I might not 
be inclined to participate or to bid as much as might 
otherwise. This especially puts the cart before the horse and 
could open the doors to another set of unsuccessful auctions. 
With the passage of privacy legislation, what impact do you 
think that this passage will have on your auction designs for 
the 700 megahertz?
    Mr. Genachowski. The privacy issue is a very important one 
is a very important one, and it is discussed in the plan. It is 
one of the big looming topics that the plan does say needs to 
be addressed to give consumers and businesses the confidence 
they need to participate in a broadband future.
    It is not--I think we are glad that there is work 
proceeding on legislation, and I think, if I understand your 
point, it is that clarity around the rules of the road on 
privacy would have real benefits to the business community and 
individuals as the broadband future rolls out. And I would 
agree with that.
    Mr. Rush. And on to another matter. As you know, one of my 
observations is that the broadband plan places too much 
emphasis on the demand and the adoption side without giving 
corresponding weight to factors that will stimulate entry by 
small businesses, including by minority-owned and 
entrepreneurs. Small businesses are a critical part of the 
equation, and they can help to offset the huge number of 
layoffs that we witness from large carriers.
    And I wanted to ask you, Chairman Genachowski and Mr. 
Copps. Mr. Copps, I know minority ownership has been a real 
area of concern for you over the years, and how do you plan on 
directing this stunningly silent omission in the National 
Broadband Plan?
    Mr. Genachowski. If I may, sir, there is complete agreement 
on the importance of small businesses and the challenges and 
opportunities around broadband. We held three workshops looking 
at the small business issues, and there is a discussion in the 
plan. I would be happy to follow up with you and make sure, but 
with respect to training, information, digital literacy for 
small businesses, there are recommendations in the plan with 
respect to small business administration and joint activities, 
extension programs, to make sure that small businesses get the 
information that they need. There are several recommendations 
on that.
    And then with respect to the affordability issue that we 
heard from small businesses, there are recommendations with 
respect to moving forward on competition issues to get more 
competition to help reduce the price. So I hope the plan is not 
confusing on that, but I--there is complete agreement on the 
importance of small businesses in all ways that you said. And I 
hope that we can follow up and make sure that we are being as 
clear as we should be.
    Mr. Copps. For my part, I commend the emphasis of the plan 
on small business. Ever since I was assistant secretary of 
commerce in previous administration, Clinton Administration, I 
have dealt a lot with small and medium-sized enterprise. They 
are the locomotive of the economy. They are the job creators. 
So getting broadband out there that can facilitate their 
business is an important priority.
    Also is making sure the small business is a participant in 
the building out of this infrastructure and gets its share of 
activity as we build out.
    Mr. Rush. Yes, I only have--I guess my time is expired.
    Mr. Boucher. Thank you very much, Mr. Rush. The gentleman 
from Vermont, Mr. Welch, is recognized for five minutes.
    Mr. Welch. Thank you very much. I had some of the same 
concerns that Mr. Blunt had, and I think that you all have 
addressed those questions. But obviously on the issue of this 
spectrum, we can't afford to ignore the incredible opportunity 
that it has to connect folks in rural and low-income 
communities. And I think all of us represent some part of our 
district, most of us anyway, that are rural and low income. And 
that is certainly the case in Vermont.
    You have heard this, and you understand it, but it is 
important for me to say it so that folks back in Vermont 
appreciate that we are on the job here about the absolute 
necessity of treating this in many ways like electricity. So 
that that opportunity to create jobs comes to the rural 
communities, and I appreciate your concern on that.
    I wanted to ask you about this. The Commission obviously 
recognizes and understands the problems in the wholesale 
market, particularly with high speed special access 
connections. In Vermont, we have established, with the help of 
the governor and the legislature, Republican and Democrat, the 
Vermont Telecommunications Authority. And it has identified the 
high cost of wireless back haul as one of the most significant 
potential barriers to our success in Vermont in getting 
wireless service deployed in rural Vermont.
    So on the one hand, we are committed to the goal. On the 
other hand, we have a practical impediment that really does 
require leadership and guidance from you. And I just want to 
kind of go down the line a little bit about your views on that. 
Why don't we start at this end with Ms. Atwell Baker, who thank 
you for coming into my office and saying hello.
    Ms. Baker. Absolutely. It was a great visit. I am glad that 
we had the time. Special access is an important input into 
services including wireless and the back haul is certainly 
important. It is something we are taking a look at. We gathered 
the data. We are in the process of doing that now to look at 
what parts need to be regulated, what parts need to be 
unregulated. So hopefully we will be able to do this 
expeditiously.
    Mr. Welch. OK, thank you. Ms. Clyburn.
    Ms. Clyburn. Yes, sir. As it relates to back haul, I 
recognize the importance of that, and recognize that it will 
increase competitive options and make the cost of deployment 
lower. So I am looking forward to engaging more fully with that 
and to get rid of the some of the bottlenecks that cause.
    Mr. Welch. Let me just elaborate on this, Mr. McDowell, 
when you do it. You know in Vermont we have been trying to 
encourage some local generation of power, and then local 
generators have to use the wires and poles that were there 
beforehand in a regulated utility. And it is a practical 
challenge trying to figure out what is fair compensation on an 
asset that has been fully depreciated. And to some extent, 
these back haul charges remind me of that whole battle that we 
went through.
    And there is the property right obviously, the owner on the 
one hand. On the other, there is the acknowledged and urgent 
necessity of not reinventing the wheel in providing access to 
an infrastructure so that all of the economy can prosper.
    And do you have any thoughts on how to thread that needle?
    Mr. McDowell. Very perceptive question actually. So when we 
talk about lofty and laudable goals in broadband, sometimes it 
does come down to the nitty-gritty of things like pole 
attachments and access to rights-of-way----
    Mr. Welch. Well that is what it is about.
    Mr. McDowell [continuing]. And special access absolutely. 
So the plan does tee up those issues. I don't want to steal the 
chairman's thunder, but when or what we might be doing going 
forward on pole attachments. I will let him speak to that and 
things of that nature with special access. For about three 
years now, I have been calling for a cell fight by cell fight, 
building by building mapping with special access. The last time 
the Commission looked at the regulations was 1998.
    I want to commend the chairman for issuing a public notice 
to get into the next stage where we can actually make a very 
informed decision as to what to do next.
    Mr. Welch. OK, great. Mr. Copps, thank you.
    Mr. Copps. Special access, I think it is time to do this. I 
am pleased that the broadband plan tees this up. We can't take 
forever on this. This has been a problem for a long time. The 
facts that we have leads me to believe that maybe some people 
are paying a lot more for this kind of access than they should 
be. If that is true, I don't think we should take forever to 
resolve that. I think we need to get to the essential core of 
data we need and then go ahead and act.
    Mr. Welch. OK, thank you. Mr. Genachowski.
    Mr. Genachowski. I agree with each of my colleagues. I 
think it is an example of the kind of issue, sort of a blood-
and-guts issue where government can play a positive role in 
promoting investment, promoting competition, and it has to roll 
up its sleeves with the data, tackle the rules. And so I think 
it is an opportunity in this issue and others for a very 
healthy discussion and debate that is focused on the barriers 
in the marketplace.
    Mr. Welch. OK, thank you. I see my time has expired, Mr. 
Chairman. Thank you, and I thank the Commission.
    Mr. Boucher. Thank you very much, Mr. Welch. Chairman 
Dingell is on his way, and we expect him to arrive momentarily 
for his round of questions. Right on time. Thank you, Chairman 
Dingell. You are recognized for five minutes.
    Mr. Dingell. There will probably be a lot of yes-or-no 
questions, and I hope that our panel will be kind to me over 
this matter. Mr. Chairman Genachowski, Webster's Dictionary 
defines the word voluntary as being ``done, made, brought 
about, undertaken et cetera by one's own accord or by free 
choice.'' Is that the definition that would be applied to the 
word voluntary or voluntarily in the recommendations of the 
Commission's broadband plan?
    Mr. Genachowski. Yes.
    Mr. Dingell. Now, so I assume that would apply then to the 
questions where they are talking about voluntary channel 
sharing and motivating existing licenses to voluntarily clear 
the spectrum. Am I right?
    Mr. Genachowski. Yes.
    Mr. Dingell. Mr. Chairman, the National Broadband Plan 
states if the FCC does not receive authorization to conduct 
incentive auctions or if the incentive auctions do not yield a 
significant amount of spectrum, the FCC should pursue other 
mechanisms. That is a quote. Now, are these other mechanisms 
going to be voluntary? Yes or no?
    Mr. Genachowski. I think that language speaks for itself.
    Mr. Dingell. I am sorry?
    Mr. Genachowski. I think that language speaks for itself. 
The other mechanisms would be determined in the future.
    Mr. Dingell. All right, if these are not voluntary, how 
would they then be accomplished?
    Mr. Genachowski. Sir, that would be speculation. I am 
focused on a near term win-win that works for broadcasters and 
that is done on a voluntary basis.
    Mr. Dingell. Well, you understand there is a concern here 
because everybody wants to know what these is going to 
constitute. Now, would we assume then that these other 
mechanisms will be 100 percent voluntary or involuntary or 
what?
    Mr. Genachowski. I would be speculating to talk about what 
would happen if we face a spectrum crisis in the country and--
--
    Mr. Dingell. I hope you and the Commission understand that 
this is a point of no small importance. Now, to all of this 
witnesses, and this again is a yes-or-no question. And, ladies 
and gentlemen, I apologize if this is discourteous. Does the 
Commission possess the authority, whether under the 
Communications Act of 1934, the Telecommunications Act of 196 
or otherwise, with which to require broadband networks to 
unbundle access? Starting with you, Mr. Chairman, please. Yes 
or no.
    Mr. Genachowski. Well, that is a good--I would like to be 
advised by counsel on that. We have been focused on broadband 
policies and----
    Mr. Dingell. I will ask then that you submit that for the 
record.
    Mr. Genachowski. I will, sir.
    Mr. Dingell. Mr. Copps?
    Mr. Copps. I would say yes.
    Mr. Dingell. Well----
    Mr. McDowell. I would say no.
    Mr. Dingell. Commissioner?
    Ms. Clyburn. I would say I would submit that later.
    Mr. Dingell. And the last of our Commissioners?
    Ms. Baker. No.
    Mr. Dingell. Now, does the Commission believe unbundling 
network access will have a chilling effect on further 
investments to expand broadband infrastructure? Again with 
apologies, yes or no.
    Mr. Genachowski. I don't know that it lends itself to a yes 
or no because unbundling means so many different things to 
different people.
    Mr. Dingell. Commissioner Copps?
    Mr. Copps. I think I would give the same answer, and a 
shorter answer would be not necessarily.
    Mr. Dingell. Commissioner?
    Mr. McDowell. If history is our guide, yes.
    Mr. Dingell. Commissioner?
    Ms. Clyburn. I echo Ms. Copps' answer.
    Mr. Dingell. Commissioner?
    Ms. Baker. Chilling, yes.
    Mr. Dingell. Again to all witnesses, does the Commission 
eventually intend to require unbundled access to broadband 
networks? Yes or no?
    Mr. Genachowski. Again I think the plan speaks for itself, 
and the plan does not speak about unbundled network elements.
    Mr. Dingell. Commissioner Copps?
    Mr. Copps. I can't predict what the Commission intends to 
do.
    Mr. McDowell. I can't predict what the Commissioner will do 
either.
    Ms. Clyburn. I am not sure at this time. Thank you.
    Ms. Baker. I hope not.
    Mr. Dingell. Now, my time is running out here. Mr. 
Chairman, the National Broadband Plan mentions wireless 
communication services as a source of new spectrum. On February 
16, 2010, I sent a letter to the Commission highlighting my 
concern that the opening of the spectrum for mobile broadband 
services may result in interference with satellite radio 
signals. Can you unequivocally assure me that this will not be 
the case? Yes or no?
    Mr. Genachowski. If the staff in the agency says there is 
not interference, then there won't be interference.
    Mr. Dingell. I didn't hear the answer, sir.
    Mr. Genachowski. Sorry. If the engineers at the FCC say 
there won't be interference, then I believe there won't be 
interference.
    Mr. Dingell. Mr. Chairman, will the Commission provide 
advanced notice of the WCS rules, publish them, and allow for 
comment prior to their implementation? Yes or no?
    Mr. Genachowski. I believe I don't see any reason why not. 
That is what we always do.
    Mr. Dingell. Ladies and gentlemen, thank you. My time is 
up. You have been very kind, Mr. Chairman. I reiterate my 
request for sending a letter asking further questions of the 
Commission and ask that it be inserted in the record.
    Mr. Boucher. Thank you very much, Chairman Dingell. And the 
record of this hearing will remain open until such time as a 
letter has been sent to you containing questions that various 
members of the committee may decide to ask beyond the context 
of today's hearing and until we have received your response to 
that letter. So when you receive it, please be as prompt as you 
can.
    We thank you for your attendance here today and for sharing 
your views with us extensively. We have been here now for about 
three and a half hours, and we have certainly been enlightened 
by the information you have provided, and hopefully you have 
been somewhat enlightened by the views we have expressed as 
well.
    The gentleman from Florida, Mr. Stearns, is recognized for 
unanimous consent request.
    Mr. Stearns. Thank you for your forbearance, Mr. Chairman. 
I ask unanimous consent to enter into the record just for the 
history a letter from 2007 from this committee, a bipartisan 
letter, to the FCC about the D block. Chairman Genachowski, 
just let me commend the staff for their public safety proposal. 
The 16 of us from both sides of the aisle sent a letter to your 
predecessor recommending a very similar approach. And I am 
optimistic that Congress will consider legislation authorizing 
first responders to use auction revenues to build a public 
safety network. And if possible, your public safety and 
wireless staff could provide input to help us draft that, that 
would be appreciated. Thank you, Mr. Chairman.
    Mr. Boucher. Thank you very much, Mr. Stearns, for that 
rather lengthy unanimous consent request. Without objection. 
Well, thanks to the Commission. This hearing is adjourned.
    [Whereupon, at 1:40 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
